<html>
<title> - THE CONSUMER PRIVACY PROTECTION ACT OF 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
              THE CONSUMER PRIVACY PROTECTION ACT OF 2002
=======================================================================


                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 4678

                               __________

                           SEPTEMBER 24, 2002

                               __________

                           Serial No. 107-131

                               __________

      Printed for the use of the Committee on Energy and Commerce










 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________


                       U. S. GOVERNMENT PRINTING OFFICE
81-960                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpO.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 DIANA DeGETTE, Colorado
  Vice Chairman                      LOIS CAPPS, California
ED WHITFIELD, Kentucky               MICHAEL F. DOYLE, Pennsylvania
BARBARA CUBIN, Wyoming               CHRISTOPHER JOHN, Louisiana
JOHN SHIMKUS, Illinois               JANE HARMAN, California
JOHN B. SHADEGG, Arizona             HENRY A. WAXMAN, California
ED BRYANT, Tennessee                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
MARY BONO, California                ANNA G. ESHOO, California
GREG WALDEN, Oregon                  JOHN D. DINGELL, Michigan,
LEE TERRY, Nebraska                    (Ex Officio)
ERNIE FLETCHER, Kentucky
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)










                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Barrett, Jennifer, Chief Privacy Officer, Acxiom Corporation.    23
    Misener, Paul, Vice President, Global Public Policy, 
      Amazon.com.................................................    31
    Palafoutas, John P., Senior Vice President, Domestic Policy 
      and Congressional Affairs, AeA.............................     7
    Rotenberg, Marc, Executive Director, Electronic Privacy 
      Information Center.........................................    35
    Schall, John A., Executive Director, National Business 
      Coalition on E-commerce and Privacy........................    15
    Servidea, Philip D., Vice President, Government Affairs, NCR 
      Corporation................................................    12
    Whitener, Rebecca, Director of Privacy Services, EDS.........    19

                                 (iii)











              THE CONSUMER PRIVACY PROTECTION ACT OF 2002

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2002

              House of Representatives,    
              Committee on Energy and Commerce,    
                    Subcommittee on Commerce, Trade and    
                                       Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Bass, Walden, and 
Harman.
    Also present: Representative Boucher.
    Staff present: Ramsen Betfarhad, majority counsel; Yong 
Choe, legislative clerk; and Jonathan J. Cordone, minority 
counsel.
    Mr. Stearns. The subcommittee will come to order.
    And good morning. I apologize; I was a little late, and I 
thank my colleague for her patience. Thank you, Mr. Boucher.
    Let me just say I welcome our distinguished witnesses to 
this legislative hearing on our bill, H.R. 4678, the Consumer 
Privacy Protection Act of 2002.
    I guess about a year and a half ago our committee began 
creating, I think one of the most exhaustive set of hearings 
dealing with this type of legislation. We had six hearings on 
privacy, and it was a workout to get these hearings, 
particularly because there was no need, it appeared, when we 
requested these hearings, because the chairman and others said, 
Well, I'm not sure we need it.
    But I think, as many in the audience would say today, that 
there is going to be a need. So I decided to go ahead, and 
after careful examination, we had these six hearings; and we 
were very pleasantly surprised.
    We took the basic premise that we wanted to do no harm to 
the Internet. The Federal information privacy legislation 
should ensure that no harm comes to the consumer from unwanted 
breaches of their information privacy, and at the same time, it 
should not harm--most importantly today--economic growth by 
hurting the sharing of consumer information. So our bill, H.R. 
4678, I think goes a long way to establishing that balance. 
Now, perhaps--a lot of you will probably agree.
    I think today we are going to feather out some of the 
nuances of my privacy bill and also that Senator Fritz Hollings 
has. I like to use this quote--I am not necessarily an avid fan 
of Ayn Rand, but she did say at one time that ``Civilization is 
the progress toward a society of privacy. The savage's whole 
existence is public, ruled by the laws of his tribe. 
Civilization is the process of setting man free from men.''
    So here in America, where we enjoy an open society, we 
cherish our privacy too. With the advent of on-line data 
collection, the American consumer's information privacy 
concerns have rightfully been heightened. As individuals and 
businesses turn to computers and computer networks for 
commercial and personal reasons, massive volumes of personal 
information are generated, collected and stored for personal, 
governmental and commercial activities.
    All of these activities generate a footprint of sorts: 
personal data. And that footprint, in turn, has heightened 
consumers' concern over their personal information privacy. The 
fact is that personal data is collected both online and 
offline. The collection of consumer data on line is just a new 
dimension of a very old practice, although an increasingly 
significant one.
    Moreover, consumer information, whether collected online or 
offline, is aggregated into the same data bases and processed 
by the same computers without regard to the source of that 
data. The consumers' legitimate concerns over their information 
privacy must, in turn, be weighed against the fact that our 
economy is highly consumer information dependent as it is a 
consumer-based economy where over two-thirds of our gross 
domestic product is comprised of consumer spending, and that is 
nearly $7 trillion.
    Historically, consumer information has played an important 
role in our economic growth. The free flow of consumer 
information has served all of us as American consumers well 
throughout our modern economic history. Any Federal law or 
regulation that unduly burdens information sharing may bring 
about a substantial and negative impact, of course, on our 
economy. Therefore, any Federal legislation intended to be 
responsive to the public's information privacy concerns must 
include within its scope protection from both unwanted on-line 
and off-line data collection and use activities, and balance 
those protections against the legitimate consumer information 
gleaning and sharing activities of a consumer-based economy; 
and I think our bill does just that.
    Shortly after the conclusion of our hearings I offered some 
basic principles. We have outlined these seven principles that 
we have and believe that the Consumer Privacy Protection Act of 
2002 is a very meaningful effort for all of us. The bill 
mandates a privacy policy and statement. The bill requires that 
any organization collecting, selling or using consumer's 
personally identifiable information for a purpose unrelated to 
the consumer transaction must establish a privacy policy, and 
the principal elements of that privacy policy must be 
accessible to the consumer at the time the organization first 
collects this personally identifiable information and 
subsequently.
    In addition, a data collector must provide the consumer 
with the opportunity to preclude the sale or disclosure of his 
or her PII to any other data collector and user. As noted in 
our bill, it applies to both online and offline, and that has 
been our policy from the very beginning.
    It preempts States' action, forecloses private right of 
action, and vests in the FTC the exclusive authority to enforce 
its provisions.
    The bill entails a novel cyber security provision designed 
to improve the integrity of consumer data and a provision 
addressing the interplay between the U.S. privacy protection 
and those of other countries.
    And finally, my colleagues, the bill fosters self-
regulatory programs by defining the outer parameters of what 
would constitute an acceptable privacy program.
    I think all of us in the aftermath of the September 11 
terrorist attack, the American people and the government, have 
understandably focused on enhancing security. Although 
protecting our citizens is the top priority of Congress, I do 
not want to see the issue of consumer information privacy 
overwhelmed by the events of 9/11. Even as a Nation wages war 
on global terrorism, it is appropriate that Congress still 
considers the matter of information privacy.
    I will conclude by stating that I think we have a balanced 
and bipartisan bill, and the American consumer is empowered 
with information about what is done with his or her personally 
identifiable information so that he or she can make an informed 
choice. Commerce, in turn--and this is very important--is 
spared the undue burden of regulation that could follow.
    So I look forward to our witnesses, and I want to thank 
them.
    And the gentlelady from California.
    Ms. Harman. Thank you, Mr. Chairman. I have obviously 
advanced in seniority on this committee at a rapid rate, and I 
appreciate it. I want to apologize, first, to you and Mr. 
Boucher and our witnesses for the fact that I must leave at 
9:45. I am a member of what's called the Joint Inquiry--it 
sounds very British to me--which is looking into the plot of 9/
11 and what reforms we might be able to make; and while I agree 
with you that 9/11 should not shape our views on every issue, 
it certainly does seem to me that we must still focus on it and 
the threats that may come after it.
    But when I leave, I will hand over this ranking position to 
Mr. Boucher, a senior member, a real senior member of the full 
committee and a cosponsor of this bill; and I trust that you 
will agree that he will ably carry out these duties.
    I want to commend you for the efforts you made before you 
introduced the bill to reach for all the members of the 
subcommittee. I was one of the people reached for. You asked me 
my views, you urged me to cosponsor the bill; and at that time 
I said that I thought it was a good bill, but I would prefer to 
hold off in order to reflect very carefully on whether you had 
achieved a balance that I thought would work between the need 
to foster technology and the need to protect privacy.
    Having thought about it for a couple of months, I thought I 
would come to your hearing to tell you that I have now decided 
to cosponsor the bill.
    Mr. Stearns. Appreciate your support.
    Ms. Harman. Well, you are welcome.
    And I appreciate the way you worked on this and I 
appreciate the fact that you have put together a very able 
panel, which I am sure will make suggestions to us that could 
improve this product further.
    I don't think you are claiming perfection here, Mr. 
Chairman. As a mother of four, I often say that perfection is 
not an option. But I think you have a very good working 
document, and if better ideas are suggested, I am sure you will 
be open to better ideas.
    So I just want to say that I am proud to cosponsor your 
legislation. I think this is an excellent panel, and I look 
forward to getting smarter as we hear from these witnesses.
    And finally, I would like to ask unanimous consent that any 
other members' opening statements be inserted into the record.
    Mr. Stearns. By unanimous consent, so ordered.
    And I thank the gentlelady from California, Ms. Harman, for 
your support; and I think you know, you are not a senior member 
in the one sense, but you are senior in another since you have 
been here twice, and that creates a lot of wisdom which a lot 
of us don't have.
    So--having run for Governor, you bring to the table a lot 
of perspective, and so your support will be very helpful, I 
think, for a lot of our colleagues.
    Ms. Harman. I thank you for that. I would just observe, 
however, that I call myself the repeater in Congress; and it 
may make me smarter or it may make me dumber for going through 
this again.
    Mr. Stearns. It is my pleasure to welcome an opening 
statement from Mr. Boucher from Virginia, who is an original 
cosponsor with me and has been very helpful in the whole 
development of this bill. So a lot of the credit for this bill 
also comes from his participation, and I welcome his opening 
statement.
    Mr. Boucher. Well, thank you very much, Mr. Chairman. I 
appreciate your inviting me to take part in the hearing today. 
While not a member of this subcommittee, I have a deep and 
abiding interest in this subject matter. And I am pleased to 
take part in the hearing.
    I want to commend you, Mr. Chairman, for your leadership in 
the development of the privacy measure we have before us, and I 
am pleased to be an original coauthor of the measure. The bill 
would establish a baseline set of guarantees for personal 
privacy with respect to personally identifiable information 
collected by Web site operators and by off-line entities that 
use information for commercial purposes.
    The requirements of the bill are straightforward and would 
be in the nature of a minimum set of guarantees. These 
guarantees protect consumers while promoting effective and 
unhindered electronic commerce. First, each Web site and off-
line entity would be required to provide a clear locus of what 
information about consumers is collected and then how that 
information is used by the party that collects it.
    As a second right, after reviewing the privacy statement, 
the consumer would be able to decline to have information about 
him collected. We commonly refer to this as an opt-out 
provision.
    As a third matter, the Federal Trade Commission would be 
empowered to assure compliance with the basic privacy 
guarantees afforded.
    And as a fourth matter, the legislation declares that these 
guarantees are the true national policy, and the bill preempts 
any inconsistent or more onerous requirements that would be 
imposed by a State or local government. Were each of the 50 
States to impose its own privacy laws, it would be exceedingly 
difficult, if not impossible, for companies doing business 
nationwide to comply with these varying requirements.
    The bill also makes it clear that the baseline Federal 
guarantees set forth in this legislation do not affect other, 
more specific Federal privacy requirements. So if a particular 
industrial sector is subject to some other more precise Federal 
privacy regime, then that set of privacy laws would apply and 
the provisions of this bill would not.
    A number of benefits will flow from passage of the measure. 
It would assure that all Web sites and commercial users of 
personally identifiable information respect privacy. While 
well-known commercial sites tend to be members of self-
regulatory programs and generally respect the privacy rights of 
their users, many smaller Web sites do not belong to the SROs, 
and currently collect information about users without any 
privacy guarantees.
    All Web site operators and off-line entities which collect 
information for commercial purposes other than some very small 
businesses and certain nonprofit entities would be covered by 
the bill that we are putting forward. By establishing only a 
minimum set of guarantees, the bill fully preserves the ability 
of conditions to offer higher levels of privacy and then market 
these increased protections as a competitive advantage.
    In my experience, consumers use privacy along with 
convenience, quality, selection, price and other factors in 
order to distinguish among competing electronic commerce 
services. Enhanced privacy protection can become a true 
competitive asset to businesses that want to step up above the 
minimum guarantees required in the law.
    Through the legislation that we are putting forth, Congress 
would also send the powerful message that both the privacy of 
our citizens as well the free flow of information for 
unencumbered global electronic commerce are of paramount 
concern. With the strong enforcement mechanisms in place in the 
U.S. and the specific enforcement mechanisms added by this bill 
the measure would assure a corset of enforceable privacy rights 
for American consumers.
    Mr. Chairman, I think this a valuable effort, and I want to 
commend you for the work that you have done. It has been my 
privilege to partner with you in this, and I hope that we can 
succeed in passing the bill. Thank you.
    Mr. Stearns. I thank my colleague.
    [Additional statements submitted for the record follow:]
    Prepared Statement of Hon. Charles F. Bass, a Representative in 
                Congress from the State of New Hampshire
    Thank you, Mr. Chairman, for holding this hearing and building on 
this subcommittee's impressive record of examining the issues relevant 
to privacy and the protection of consumers.
    Mr. Chairman, as I look forward to today's testimony, I am anxious 
to hear from the many assembled witnesses, and will thus be brief.
    I am a cosponsor of this H.R. 4678 because I believe it is the best 
effort any committee in either chamber has put forward to address the 
legitimate problems that exist for consumers. I am particularly pleased 
with the bill's:

<bullet> rejection of distinction between data collected offline and 
        online;
<bullet> with its federal jurisdictional protection of what may well be 
        inherently Interstate commerce; and
<bullet> significant further progress on identity theft.
    The combined weight of these strengths plus the clarity the bill 
brings to the international trade arena make it an effort worth 
supporting. I look forward to the testimony and a later opportunity to 
use these comments to improve on this draft
                                 ______
                                 
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce
    Thank you, Mr. Chairman, and let me commend you, first of all, for 
the extraordinary effort you and the Subcommittee members have put into 
this complex and intricate issue of consumer privacy. I believe this 
good work shows in the thoughtful, comprehensive new bill that is the 
subject of today's hearing.
    One reason I am a cosponsor of H.R. 4678 is because of your careful 
consideration of the issue as you crafted this legislation: you have 
listened to all sides, all interested parties, and worked off an 
extensive record of some six privacy hearings held by this Subcommittee 
this Congress. The result, I believe, promises to be a significant 
enhancement of the privacy protections for American consumers when 
conducting commercial transactions.
    The hearing process behind this bill brought out a fact that we 
must remember as we move forward: There are legitimate consumer 
concerns about how companies collect and use information. There are 
also actual abuses of consumer privacy occurring in the marketplace 
today. Whether or not such abuses cause direct harm, they can still 
harm consumer trust and confidence, which can produce a chilling effect 
on the expansion of goods and services available to consumers overall.
    Of course, leading companies, often those with the biggest brand 
names, understand the value of protecting consumer privacy. They 
realize that making consumers comfortable about their privacy practices 
is good for business. They also understand that betraying consumer 
trust is business suicide. If all companies were like those leading the 
pack, then this legislation might not be needed.
    But this is not the case. We know there are some bad actors, a 
small minority of companies and individuals causing the greatest grief 
for consumers. There is also a host of companies that haven't made 
privacy a priority for their business. And so I think there is need for 
targeted legislation to provide additional privacy protections for 
consumers.
    This will provide a standard level of federal law to govern privacy 
of consumers in those areas not already covered by law. It brings 
everyone up to the level where the good guys already are. We are going 
to raise the tide.
    H.R. 4678 embodies a principal that I think is essential for any 
new commercial privacy legislation: promote consumers' privacy without 
unfairly hampering current commercial activity and the vast consumer 
benefits generated by information sharing.
    The many components of this bill align well with my position on 
privacy legislation. For example, I will not support a bill that takes 
a medium-specific approach to privacy, such as applying only to 
Internet transactions. Today's information collection activities are 
not bound by any one medium. Companies generally don't build separate 
databases or have differing privacy regimes based on the medium used to 
collect consumer data. And we should not legislate as if they do.
    We also cannot have 50 different laws for information sharing, 
which will only stifle interstate commerce--a scenario that gets even 
worse if localities start to jump on the bandwagon. I'm pleased, Mr. 
Chairman, to see the bill takes a firm stance towards state preemption.
    We must also ensure that consumers have the information they need 
to make educated decisions about the information collected and used 
about them. So I'm also pleased to see that H.R. 4678 includes a 
detailed process to empower and educate consumers about company privacy 
practices through notices and statements.
    And given that the sale of information has been one of the 
strongest concerns raised during the hearings, the bill appropriately 
includes an important obligation to permit the consumer to preclude the 
sale of information from one company to another. But it doesn't mandate 
that this be either opt-in or opt-out--as broadly locking in this 
decision is not in the best interest of consumers.
    Because privacy intersects so many difficult issues, the list of 
essential measures needed to navigate this terrain is too long to go 
into here. Suffice to say, I'm also pleased to see the bill takes 
solid, defendable stances on other necessary fronts.
    It emphatically makes clear that self-regulation is a necessary 
part of the process. It includes a lengthy and extensive self-
regulatory mechanism to allow privacy organizations to police the 
actions of its members with an FTC backstop, if necessary. This should 
increase compliance and ease the process consumers have to deal with to 
get a problem resolved.
    On the legal front: The bill bans private rights of action, which 
will prevent harmful lawsuits and limit legal shenanigans. It is proper 
to do this because the bill includes strong authority for the FTC to 
take enforcement action against violators--and we expect vigilance by 
the FTC in this matter.
    Lastly, the bill would deploy new information security obligations 
and has specific, targeted fixes for identity theft and an extensive 
provision dealing with the international aspect of this law. All are 
needed and worthy provisions.
    I will encourage all Members to join this effort, and be part of 
this bipartisan, balanced approach. No one should assume that every 
word and comma of the bill is locked in stone. On the contrary, we will 
be open to discussions on how best to improve the bill--without gutting 
essential principles. If we work together perhaps we can work through 
any perceived shortfalls.
    Let me add that we also have no set agenda for moving the bill. We 
will decide where to go after the hearing. As I stated during the 
privacy hearings last year, we are set on our own, determined course 
here. We certainly haven't designed this bill as a response to the 
Senate's work. This measure builds on our own thoughtful process.
    Thank you again Mr. Chairman, and I look forward to the witness 
testimony.

    Mr. Stearns. We welcome our panel. John Palafoutas, Senior 
Vice President, Domestic Policy, AeA; Mr. Phillip Servidea, 
Vice President, Government Operations, NCR; John Schall, 
Executive Director, National Business Coalition on E-Commerce 
and Privacy; Ms. Rebecca Whitener, Director of Privacy 
Services, EDS Security & Privacy Services; Ms. Jennifer 
Barrett, Chief Privacy Officer, Acxiom; Paul Misener, Vice 
President, Global Public Policy, Amazon.com; and Mark 
Rotenberg, the Executive Director of Electronic Privacy 
Information Center.
    Let me thank all of you for coming, and I welcome your 
opening statements. We will just start from my left to my 
right.

   STATEMENTS OF JOHN P. PALAFOUTAS, SENIOR VICE PRESIDENT, 
   DOMESTIC POLICY AND CONGRESSIONAL AFFAIRS, AeA; PHILIP D. 
SERVIDEA, VICE PRESIDENT, GOVERNMENT AFFAIRS, NCR CORPORATION; 
JOHN A. SCHALL, EXECUTIVE DIRECTOR, NATIONAL BUSINESS COALITION 
   ON E-COMMERCE AND PRIVACY; REBECCA WHITENER, DIRECTOR OF 
PRIVACY SERVICES, EDS; JENNIFER BARRETT, CHIEF PRIVACY OFFICER, 
ACXIOM CORPORATION; PAUL MISENER, VICE PRESIDENT, GLOBAL PUBLIC 
  POLICY, AMAZON.COM; AND MARC ROTENBERG, EXECUTIVE DIRECTOR, 
             ELECTRONIC PRIVACY INFORMATION CENTER

    Mr. Palafoutas. Thank you, Mr. Chairman. The first thing I 
want to do is comment on the process that you employed on this 
bill, which I think was extremely important. People forget in 
the swirl of Internet privacy and the Internet that the 
Internet is a new--it is a new medium. It is a new industry. It 
is 8 years old.
    And there has been a lot of hyperbole, both on our side and 
on other sides, of the Internet and its use. And the process 
that you and the Democratic members employ on this bill was 
extremely important because you brought consumer groups in, 
privacy act advocates and the high tech industry. And I can't 
tell you how important that was as a model for this body, and I 
hope for the other body, to use in coming up with good privacy 
legislation.
    We face this problem all the time at AeA. As you know--and 
you spoke to our board, Mr. Chairman, on this bill a few months 
ago--AeA is one of the largest high tech trade associations in 
the country. And the reason we got involved in this early is 
because we have operations in 18 cities around the country and 
we lobby in a dozen States. And our board became concerned 
because we saw the proliferation, the possible proliferation, 
of privacy rules at the State level and this concerned us 
because the big question of interstate commerce and the 
proliferation of 50 State regimes on privacy is extremely--of 
great concern to us.
    And it is amplified by the fact that some of the State 
legislatures are only meeting part-time, and while they are 
good decent people, they are not spending the time that this 
body can in coming up with the kind of legislation, getting the 
kind of background that we need on this.
    We saw this most clearly this past summer in Minnesota. 
Minnesota and California have been the first two States to pass 
Internet privacy laws. The Minnesota model is the one that 
scares industry the most. It was done in a politically 
overheated atmosphere. It was not a bipartisan bill. It was 
being pushed through as part of the election year, and we got 
what we consider as pretty bad legislation. In fact we are 
going to spend a lot of resources, both time and money, in 
taking this bill to court because of the issues that it brings 
up.
    And we are glad that this bill, with its strong preemption, 
is going to provide the kind of context that the industry 
needs, because now that we have a bill in California and a bill 
in Minnesota, what we are concerned about at AeA is that we are 
going to see more and more States using these as a template, 
and they are going to go out--and now that this is the floor, 
they are going to start to implement other legislation that 
really causes a great concern to our industry. And because of, 
again, our large lobbying activity at the State level, we have 
seen that legislatures are not focused on this as they should.
    The other thing that this bill highlights--and it is 
important for the members to see--is, nobody is more concerned 
about consumer confidence than our member companies. I need to 
say that again. Nobody is more concerned about consumer 
confidence than our member companies. If consumers don't have 
confidence in a Web site, they are going to go somewhere else. 
If they think that their information is being misused, they are 
going to go somewhere else. And I think what your bill has done 
is strike a proper balance in saying, Here's the rules; but, 
consumers, you have responsibilities too.
    So in both the preemption and in the choice provisions we 
see very strong and important provisions because we believe 
that consumers should have a choice. But it is a choice that is 
dictated between them and the provider of the service that they 
are getting over the Internet, whether it is--in this case, you 
provide for an opt-out, which I think is very important.
    Certain companies in our industry have an opt-in model for 
their business model. We think that is perfectly appropriate. 
But it should be part of that implicit and probably sometimes 
explicit contract that the companies have with the consumer.
    Your bill comports with our privacy principles that we have 
outlined in our written testimony and we have conveyed to your 
staff.
    And I have to comment a little bit on your staff. I state 
in my written comments the persistence and professionalism of 
Ramsen. He has indeed been a junkyard dog on many of those 
issues in making sure that the committee is getting all the 
information that it should have. So I couldn't go by without 
making that comment.
    As I said, generally speaking, this bill hits our 
principles. One--two issues that we are concerned about are 
the--what we consider excessive penalties in the enforcement 
provision, the fact that in--actually three--the fact that this 
does not cover government Web sites which--and also nonprofits. 
I remind you that AeA is a nonprofit organization and we do use 
information at times. And we do have, as I mention in my 
comments and I am sure you will hear from the other panelists, 
concerns about the Safe Harbor and the EU privacy directive.
    But we applaud you for this bill. It is a very strong bill, 
and we look forward to working with you in the next Congress to 
make it even stronger.
    [The prepared statement of John Palafoutas follows:]
Prepared Statement of John Palafoutas, Senior Vice President, Domestic 
                  Policy & Congressional Affairs, AeA
                              introduction
    Mr. Chairman, Members of the Committee, I thank you for the 
invitation to appear today to discuss the need for stronger federal 
protections for consumer privacy, and comment specifically on H.R. 
4678, the ``Consumer Privacy Protection Act of 2002.''
    My name is John Palafoutas, and as AeA's Senior Vice President of 
Domestic Policy and Congressional Affairs, I have responsibility for 
policy implementation of AeA's Internet privacy initiative, as directed 
by our Board of Directors.
    By way of background, AeA is the nation's largest high-tech trade 
association. AeA represents more than 3,000 companies with 1.8 million 
employees. These 3000+ companies span the high-technology spectrum, 
from software, semiconductors, medical devices and computers to 
Internet technology, advanced electronics and telecommunications 
systems and services. With 17 regional U.S. councils and offices in 
Brussels and Beijing, AeA offers a unique global policy grassroots 
capability and a wide portfolio of valuable business services and 
products for the high-tech industry. AeA has been the accepted voice of 
the U.S. technology community since 1943. If you'd like more 
information about us and our mission, you can visit our website at 
www.aeanet.org.
    Mr. Chairman and Mr. Towns, I especially want to thank you both for 
your leadership on the issue of Internet privacy. By seeking out 
information from all corners--consumer groups, privacy advocates, and 
the high tech industry--you have shown your commitment to creating 
bipartisan legislation that is well rounded and responsive to the 
concerns of all. I also wish to commend your committee's Majority 
Counsel, Ramsen Betfarhad. In his persistence and professionalism, he 
has served this Committee well.
    Privacy is an especially important topic for our member companies, 
as you may recall Mr. Chairman when you spoke at our Board of Directors 
meeting in May of this year. Every one of our member companies' 
businesses revolves around the Internet in one way or another. 
Protecting online consumers is of paramount importance to our 
companies. It is for this reason that AeA has been championing the 
cause of strong, non-discriminatory pre-emptive federal privacy 
legislation for almost two years now--something that no other trade 
association can lay claim to.
    As use of the Internet continues to grow, online vendors are 
gathering more information about the purchasing habits of their 
customers. The increase in the collection and use of this data has 
raised public concern over precisely what information is being 
collected about consumers, how that information is being used, and 
whether it is being transferred to third parties. As a result, 
addressing concerns related to the collection and use of consumer 
information is becoming of increasing importance to legislators at the 
state and federal levels.
    E-commerce continues to be one of the driving forces behind the 
growth of the U.S. and world economy. Online companies collect a 
tremendous amount of information about customers in order to provide 
discounted goods and services, efficiently target niche markets, and 
notify customers of new products and services. Furthermore, these 
personal information databases are a valuable business asset for online 
companies. These companies use the databases not only to promote their 
own products, but oftentimes transfer this information to third party 
marketers. This allows companies to obtain and attract additional 
revenue and funding for their operations. However, surveys show that 
consumers are concerned over how their information is collected, used, 
and distributed.
    Policy makers face a dilemma in addressing two very legitimate 
needs. On one side of the balance is the very real need for consumer 
privacy, and on the other, the constructive actions business has 
undertaken in numerous self-regulatory solutions. The role of 
government is to be the balance point in the middle--assuring that 
effective and enforceable solutions are implemented fairly, without 
jeopardizing the beneficial uses of this information by online 
companies. Caution must also be taken to assure against the adoption of 
burdensome regulations that could impede the continued growth of online 
commerce or patchwork state level solutions that are neither consonant 
nor enforceable across a borderless medium.
    The imposition of stringent privacy regulations on the Internet 
could severely slow down the projected e-commerce growth. The 
Department of Commerce predicts e-commerce to pass $300 billion by the 
end of this year while some in private industry are predicting numbers 
much higher. It is for this reason that we have put considerable 
thought and effort into our privacy principles.
                        aea's privacy principles
    We first released our Privacy Principles in January of 2001 in 
order to guide federal policy makers in considering balanced, pre-
emptive privacy legislation that is sensitive to the needs of consumers 
and to the Internet's economic and technical realities. These 
principles have been crafted from input and advice garnered from AeA's 
member companies, our Grassroots Network, and responses from town hall 
meetings across the country. Overwhelmingly, the responses all 
identified the grim possibility of multiple and conflicting state 
privacy regulations as their top legislative concern.
    Federal preemption legislation plays a crucial role in ensuring 
consistency and certainty into the marketplace. The passage of Internet 
privacy legislation this past year in California and Minnesota 
highlights the growing need for preemption legislation. The inherent 
danger is both imminent and profound. Other states are now looking to 
make a template of these new laws--laws that are provincial in nature 
and unconcerned with their deleterious impact on interstate commerce.
    Further, only the federal government is in a position to create 
uniform U.S. privacy standards that not only protect American 
consumers, but that will harmonize with international privacy 
directives. Federal legislation should not, however, attempt to replace 
or impede constructive private sector efforts, but rather build upon 
the baseline that they have laid down.
    What good federal preemption language will do is protect consumers 
without imposing burdensome, impractical new requirements. Poorly 
crafted legislation will translate into higher consumer costs, fewer 
online services, and less free content--thus hurting the same consumers 
such legislation intends to benefit.
    Mr. Chairman, because this legislation largely comports with AeA's 
Privacy Principles, AeA believes that H.R. 4678 is generally good 
legislation, and with some technical adjustments, it is something I 
believe AeA member companies may support.
    Legislation Should Ensure National Standards. H.R. 4678 Does This. 
The Internet is a new and powerful tool of interstate commerce. Public 
policies related to Internet privacy should be national in scope, thus 
avoiding a patchwork of state and local mandates. This uniform 
framework will promote the growth of interstate e-commerce, minimize 
compliance burdens, sustain a national marketplace and make it easier 
for consumers to protect their privacy.
    H.R. 4678 successfully preempts state and local statutory law, 
common law, and rules and regulations dealing with the use of 
personally identifiable information (PII) in interstate commerce.
    Legislation Should Not Discriminate Against the Internet. H.R. 4678 
Doesn't. Consumers should have confidence that their privacy will be 
respected regardless of the medium used. Similar privacy principles 
should apply online and offline. Public policy should not discriminate 
against electronic commerce by placing unique regulatory burdens on 
Internet-based activities.
    H.R. 4678 makes no distinction between the online and offline 
worlds.
    Legislation Should Provide Individuals with Notice. H.R. 4678 Does 
This. Web sites that collect personally identifiable information should 
provide individuals with clear and conspicuous notice of their 
information practices at the time of information collection. 
Individuals should be notified as to what type of information is 
collected about them, how the information will be used, and whether the 
information will be transferred to unrelated third parties.
    Because H.R. 4678 requires data collectors who sell customer PII to 
post notice at the time of data collection, consumers will know that 
the collector's practices may raise an issue of consumer privacy, and 
allows them to find out exactly what those practices are. Further, H.R. 
4678 sets out the requirements for what the notice must contain, as 
well as allowing the FTC to issue guidelines and advisory opinions.
    Legislation Should Ensures Consumer Choice. H.R. 4678 Does This. 
Consumers should have the opportunity to opt out of the use or 
disclosure of their personally identifiable information for purposes 
that are unrelated to the purpose for which it was originally 
collected. Consumers should be allowed to receive benefits and services 
from vendors in exchange for the use of information. It is important 
that the consumer understands this use and is able to make an informed 
choice to provide information in return for the benefit received.
    H.R. 4678 mandates that all data collectors shall allow consumers 
to opt-out of the sale of their PII to non-affiliated third parties, 
and the withholding of consent will last five years.
    Legislation Should Leverage Market Solutions. H.R. 4678 Does This.  
Private sector privacy codes and seal programs are an effective means 
of protecting individuals' privacy. Lawmakers should recognize and 
build upon the self-regulatory mechanisms the private sector has put in 
place and continues to build. These mechanisms are backed by the 
enforcement authority of the Federal Trade Commission and state 
attorneys general. Public policies also should allow organizations to 
implement fair information practices flexibly across different mediums 
and encourage innovation and privacy enhancing technologies.
    H.R. 4678 rewards participation in recognized seal programs by 
placing the burden of proving non-compliance on the FTC, as well as 
allowing for the use of binding private arbitration.
    Legislation Should Utilize Existing Enforcement Authority. H.R. 
4678 Does This. With the imposition of notice requirements, the Federal 
Trade Commission should use its existing authority to enforce the 
mandates of federal legislation. Legislation should not create any new 
private rights of action.
    H.R. 4678 provides that any violation will be an unfair or 
deceptive act under Sec. 5 of the Federal Trade Commission Act, thus 
not adding new sanctions into the already expanding pantheon of 
penalties. However, H.R. 4678 imposes strict monetary penalties that we 
believe are excessive, especially the doubling of civil penalties.
    Legislation Should Avoid Conflicting or Duplicative Standards. H.R. 
4678 Does This. In cases where more than one government agency seeks to 
regulate the privacy practices of a particular organization or 
industry, those agencies should offer a single coordinated set of 
standards.
    H.R. 4678 ensures that organizations complying with other federal 
privacy laws dealing with the protection of a consumer's PII are deemed 
to be in compliance with this act.
              aea does have some concerns with h.r. 4678:
    H.R. 4678 Does Not YET Protects Consumers in the Public and Private 
Arena. Government and non-profit organizations collect a tremendous 
amount of personally identifiable information about citizens. The need 
to foster consumer confidence applies to private and public sector 
activities. Government agencies and non-profit organizations that 
collect personally identifiable information should be required to 
follow fair information practices imposed on the private sector by law 
or regulation. It is well known that consumer information gleaned from 
government websites is often traded to third-parties without notice or 
consent. We believe this to be an unacceptable practice. H.R. 4678 
should hold all government websites--federal, state, and local--to the 
same high standards imposed upon private industry.
    H.R. 4678 May Have a Negative Impact on the EU Data Protection Safe 
Harbor. Back in 2000, a safe harbor was negotiated that would provide 
U.S. companies with protection from the EU Data Protection if they 
agreed to abide by the privacy principles included in the Safe Harbor. 
The EU only agreed to the U.S.'s self-regulatory approach if the FTC 
provided the enforcement mechanism for those companies that signed up 
for the safe harbor. As it stands today, 242 American corporations have 
signed up for the Safe Harbor, and many of those companies are AeA 
Members. Further investigation needs to be undertaken to determine if 
H.R. 4678 will harmonize with the EU Data Directive, and if it doesn't 
then if it will not jeopardize the negotiated Safe Harbor now in place. 
It is one thing to say that we are in compliance with the European Data 
Directive, and it is quite another to convince the Europeans of that 
fact.
    We believe that while these concerns are not fatal to the bill at 
hand, they do present very important questions that do need to be 
addressed before our unqualified support can be given to H.R. 4678. My 
staff and I will be happy to work with you and the Subcommittee in 
taking up these issues.
    Mr. Chairman, thank you for the opportunity to testify on H.R. 
4678. AeA looks forward to working with the Committee in developing--
and passing--practicable consumer privacy protection, if not in this 
Congress then in the next. I would be pleased to answer any questions 
that you may have.

    Mr. Stearns. I thank you.
    Mr. Servidea.

                 STATEMENT OF PHILIP D. SERVIDEA

    Mr. Servidea. Mr. Chairman, Representative Harman, members 
of the subcommittee, I am Phil Servidea, Vice President of 
Government Affairs for NCR Corporation. Thank you for the 
invitation to testify before your subcommittee today.
    NCR's heritage for providing solutions for retail and 
financial industries goes back almost 120 years to its founding 
as the National Cash Register Company. Today, NCR is one of the 
world's largest suppliers of solutions that enable transactions 
between consumers and businesses, be it in stores, through 
self-service terminals or over the Internet.
    Mr. Chairman, NCR's corporate slogan, ``Transforming 
Transactions Into Relationships,'' speaks to the importance we 
place on consumer protection in our solutions. So the subject 
of today's hearing is important to NCR as it is to all of us, 
since we are all consumers.
    I am also the working chair of the Privacy Task Force of 
the Computer Systems Policy Project, or CSPP. CSPP is the 
Nation's leading advocacy organization, comprised exclusively 
of CEOs of the information technology industry. We have worked 
closely with the chairman and the committee staff in the 
formation of H.R. 4678.
    We commend the chairman on the deliberative process used to 
craft the legislation. Businesses collecting information about 
their customers is not new. Your grandmother's butcher probably 
knew not only her name and her favorite cuts of meat, but also 
how the children were doing in school. We used to call it 
friendly, personal service at a time when businessmen and their 
customers were also neighbors.
    Today, technology makes it possible for companies thousands 
of miles away to also serve their customers better. The growth 
of data collecting is fueling the global debate over privacy, 
creating a tension between consumers sharing personal 
information and businesses' attempts to serve them more 
effectively and personally.
    The benefits to consumers of personalized service and the 
protection of their personal data are not incompatible. 
Consumers should and must have control over the use of their 
personal data. The protection and appropriate use of personal 
information is a growing concern for consumers and businesses 
alike. To ensure continued success and growth, it is important 
for companies to address privacy as an important consumer 
expectation.
    One fundamental necessity of commerce, both traditional as 
well as e-commerce, is trust. Without trust, businesses cannot 
survive. Businesses that do not heed the expectations of their 
customers will quickly lose trust, and ultimately their 
viability. Quite simply, the business of privacy is good 
business.
    Consumers in control of their data may freely choose the 
release of their personal information in return for better 
choices or services. I suspect that each of us as airline 
passengers would not mind being offered an upgrade at the gate 
because the airline agent knows that we experienced a flight 
cancellation days earlier.
    Most companies are doing the right thing in providing 
privacy options. But as long as there is potential short-term 
gain in abusing personal information, can we count exclusively 
on company volunteerism to prevent abuse. While many company 
executives shudder at the thought of more regulation, their 
companies and their customers alike will be better served if 
industry and government work together toward rational and 
uniform rulings that are fair to all.
    NCR believes that the right legislation built on top of 
market-driven solutions can assure that all consumers are 
afforded this protection.
    Presently Federal privacy laws exist which govern specific 
industry sectors, protect sensitive information and target 
specific harmful or fraudulent behaviors. But in the U.S. there 
is no single, broad-based law that affects the use of personal 
data, which is why we are here today.
    But what type of legislation can work? The CSPP has 
advanced a set of four principles for such legislation. I would 
like to comment on two of those. First, legislation must be 
comprehensive and apply with appropriate flexibility to 
personal data, whether collected online, over the telephone or 
in face-to-face commercial transactions. To enact legislation 
that applies only to on-line activities would mislead the 
American consumer.
    As a supplier of business intelligence solutions, NCR 
knows, as the chairman said, that click-and-mortar firms do not 
distinguish between personal data obtained through different 
channels. Further, on-line transactions account for only a 
small fraction of consumer transactions, last year less than 1 
percent. Also, as technologies merge, such as the Internet and 
wireless technologies, the distinction between online and 
offline is blurring.
    Simply put, when it comes to customer's rights, data is 
data.
    Second, the legislation must recognize that markets, 
particularly on the Internet, are national in scope. One only 
need recall the endless mailings from banks implementing Gramm-
Leach-Bliley to imagine the morass of legal uncertainty that 
would ensue if both State and Federal legislation purported to 
govern consumers' rights for personal data protection. Federal 
legislation in this area should preempt State and local law.
    Mr. Chairman, and Ranking Member Towns, while I have 
commented on only two principles, I am proud to say that your 
bill, overall, effectively balances consumer and business 
interests. H.R. 4678 requires clear and conspicuous disclosure 
of businesses' privacy practices and enables individuals to 
make informed choices about sharing their personal information.
    During NCR's long history, a lot of things have changed, 
but its philosophy has not. If you want your customers' trust, 
you have to respect your customers' privacy. In summary, NCR is 
pro-privacy. H.R. 4678 is a step in the right direction, and we 
look forward to working with the subcommittee toward the bill's 
enactment.
    Thank you, Mr. Chairman, for holding this hearing today. 
Thank you for your hard work on drafting H.R. 4678.
    [The prepared statement of Philip D. Servidea follows:]
Prepared Statement of Philip D. Servidea, Vice President of Government 
 Affairs, NCR Corporation; Chair, Networked World Committee, Computer 
                         Systems Policy Project
    Mister Chairman, Representative Towns, and members of the 
Subcommittee, I am Phil Servidea, Vice President of Government Affairs 
for NCR Corporation. Thank you for the invitation to testify before 
your Subcommittee today.
    NCR's heritage in providing solutions for retail and financial 
industries goes back almost 120 years to its founding as the National 
Cash Register Company. Today, NCR is one of the world's largest 
suppliers of solutions that enable transactions between consumers and 
businesses, whether in stores, through self-service terminals, or over 
the Internet.
    Mister Chairman, NCR's corporate slogan, ``Transforming 
Transactions Into Relationships'', speaks to the importance we place on 
consumer protections in our solutions. So, the subject of today's 
hearing is important to NCR, as it is to all of us since we are all 
consumers.
    I am also the Working Chair of the privacy task force of the 
Computer Systems Policy Project, or CSPP. CSPP is the nation's leading 
advocacy organization comprised exclusively of CEOs of the information 
technology industry. We have worked closely with the Chairman and 
Committee staff in the formation of HR 4678. We commend the Chairman on 
the deliberative process used to craft this legislation.
    Businesses collecting information about their customers is not new. 
Your grandmother's butcher probably knew not only her name and her 
favorite cuts of meat, but how the children were doing in school, as 
well. We used to call it ``friendly, personal service'' at a time when 
businessmen and their customers were also neighbors.
    Today, technology makes it possible for companies thousands of 
miles away to also serve their customers better. The growth in data 
collecting is fueling the global debate over privacy; creating a 
tension between consumers' sharing personal information and business' 
attempt to serve them more effectively and personally.
    The benefits to consumers of personalized service and the 
protection of their personal data are not incompatible; consumers 
should and must have control over the use of their personal data.
    The protection and appropriate use of personal information, is a 
growing concern for consumers and businesses alike. To ensure continued 
success and growth, it's important for companies to address privacy as 
an important consumer expectation. One fundamental necessity of 
commerce, both traditional as well as e-commerce, is trust. Without 
trust, businesses cannot survive. Businesses that do not heed the 
expectations of their customers will quickly lose trust, and ultimately 
their viability. Quite simply, the business of privacy is ``good 
business''.
    Consumers in control of their data may freely choose the release of 
their personal information in return for better choices or services. I 
suspect that you as an airline passenger would not mind being offered 
an upgrade at the gate because the airline agent knows you experienced 
a flight cancellation days earlier.
    Most companies are doing the right thing in providing privacy 
options. But as long as there is potential short-term gain in abusing 
personal information, can we count exclusively on company voluntarism 
to prevent abuse? While many company executives shudder at the thought 
of more regulation, their companies and their customers alike will be 
better served if industry and government work together toward rational 
and uniform rules that are fair to all. NCR believes that the right 
legislation built on top of market-driven solutions can assure that all 
consumers are afforded this protection.
    Presently, federal privacy laws exist which govern specific 
industry sectors, protect sensitive information, and target specific 
harmful or fraudulent behaviors. But in the U.S. there is currently no 
single, broad-based law that affects the use of personal data, which is 
why we are here today.
    But what type of legislation can work? CSPP advanced a set of core 
principles for such legislation. I would like to comment on two of 
those principles.
    First, legislation must be comprehensive and apply, with 
appropriate flexibility, to personal data, whether collected online, 
over the telephone or in face-to-face commercial transactions. To enact 
legislation that applies only to online activities would mislead the 
American consumer. As a supplier of business intelligence solutions, 
NCR knows that click-and-mortar firms do not distinguish between 
personal data obtained through different channels. Further, online 
transactions account for only a small fraction of consumer 
transactions, last year less than one percent. Also, as technologies 
merge, such as the Internet and wireless technologies, the distinction 
between online and offline is blurring.
    Simply put, when it comes to consumers' rights, data is data.
    Secondly, legislation must recognize that markets, particularly on 
the Internet, are national in scope. One only need recall the endless 
mailings from banks implementing Gramm-Leach-Bliley to imagine the 
morass and legal uncertainty that would ensue if both State and federal 
legislation purported to govern consumers' right for personal data 
protection. Federal legislation in this area should preempt State and 
local law.
    Mister Chairman and Ranking Member Towns, while I have commented on 
only two principles, I am proud to say that your bill overall 
effectively balances consumer and business interests. HR 4678 requires 
clear and conspicuous disclosure of business' privacy practices and 
enables individuals to make informed choices about sharing their 
personal information.
    During NCR's long history, a lot of things have changed, but its 
philosophy has not--if you want your customers' trust, you have to 
respect your customers' privacy. In summary, NCR is pro-privacy. HR 
4678 is a step in the right direction and we look forward to working 
with the Subcommittee toward the bill's enactment.
    Thank you, Mister Chairman, for holding this hearing today and 
thank you for your hard work on drafting HR 4678.

    Mr. Stearns. And I thank you for your compliments.
    Mr. Schall.

                   STATEMENT OF JOHN A. SCHALL

    Mr. Schall. Mr. Chairman, thank you for the opportunity to 
discuss the Consumer Privacy Protection Act. I am John Schall, 
the Executive Director of the National Business Coalition on E-
Commerce and Privacy. We are 15 widely recognized companies 
dedicated to the pursuit of a balanced and uniform national 
privacy policy.
    We are engaged in virtually every sector in the economy and 
in every geographic location in the country, with over 40 
million customers. We are both online and offline, and we are 
both financial and nonfinancial companies, companies like 
General Motors, John Deere, Home Depot, General Electric, 
Charles Schwab.
    We believe that H.R. 4678 moves the privacy debate in a 
positive direction; and we would like to thank you, Mr. 
Chairman, for the enormous amount of work that you and your 
staff have put into crafting this legislation.
    The straightforward step of letting consumers know how 
information is going to be used is the single most important 
thing we can do in the area of privacy. A well-informed 
customer is the heart of the matter because knowledge empowers 
the consumer.
    I will focus my remarks today on three areas. One, creation 
of a uniform national privacy standard; two, the equal 
treatment of on-line and off-line information; and three, 
private rights of action.
    A patchwork of State laws would pose a significant 
disincentive for companies that would be forced to navigate a 
sea of conflicting local laws. Mr. Chairman, over 548 bills 
were introduced in the 50 State legislatures this year dealing 
with privacy; that is 548 different approaches to what 50 
different State jurisdictions ought to do with the single issue 
we are discussing here today. And if that weren't enough, 
numerous local jurisdictions are now also jumping in to tackle 
the privacy question.
    In Ms. Harman's home State of California, for example, San 
Mateo County and Daly City have both just passed their own 
privacy laws. And six more counties and cities in just the San 
Francisco area are expected to do so in the coming months, 
coming weeks. And surely there will be more after that.
    Remember, there are almost 100,000 local government 
jurisdictions in the United States. I am not sure I even want 
to contemplate how a company could comply in 50 different 
States and 100,000 different localities.
    I would also add that those who argue that they seek a 
Federal privacy law to create, quote, ``a floor but not a 
ceiling'' are begging the question of fundamental fairness. A 
world of floors and ceilings will result in conflicting 
standards that benefit some consumers and punish others merely 
because of geographic location. We wish to strongly impress 
upon the Congress, then, the urgent need to pass legislation 
that preempts both State and local laws and provides a uniform 
privacy standard across the Nation.
    Second, all our companies operate both online and offline, 
and we are pleased that this bill treats both types of 
information in the same way. Making a distinction between 
online and offline would present real difficulty. As a general 
rule, all information collected by companies, either online or 
offline, is stored in the same system. No distinction is made 
based on where the information is collected.
    And such a distinction becomes an exercise in hair-
splitting. If information is collected in person and then 
stored online, is that online or offline? What if the 
information is transmitted from a telephone to a computer? I 
mean, these are the sorts of Solomonic judgments that could 
keep the courts busy for years.
    Third, we are pleased that H.R. 4678 does not permit 
private rights of action at a time when everyone agrees that 
our society is already far too litigious. The Federal Trade 
Commission has recognized that existing enforcement authority 
deals with most violations of privacy law.
    Opening the door to private rights of action would result 
in unnecessary lawsuits and a clogged legal system. Instead, 
H.R. 4678 more appropriately creates a Self-Regulatory 
Organization process with binding arbitration.
    I would also point out that under this bill the States 
would still have private rights of action and the litigation 
authority vested in them through the many FTC acts.
    Mr. Chairman, H.R. 4678 is the most promising alternative 
currently pending in the Congress. We would like to suggest, 
however, some potential sand traps to avoid and a few drafting 
improvements in the bill. For example, the opt-out provisions 
of the bill should apply to the use of information and not to 
the collection of information. Likewise, our companies who all 
deal in both on-line and off-line transactions and both the 
business-to-business and the business-to-consumer environments 
would like it to be more explicit that this bill applies to 
business-to-consumer relationships only. We believe it would 
also be helpful to prohibit class action lawsuits.
    Finally, unnecessary access provisions are best avoided 
because they could, ironically, create perverse incentives for 
companies to centrally maintain exactly the sort of customer 
profiles that we all seek to avoid.
    So, Mr. Chairman, on behalf of the National Business 
Coalition on E-Commerce and Privacy, I would like to 
congratulate you on striking a sensible balance between the 
privacy of the consumer and the needs of the business 
community. And thank you.
    [The prepared statement of John A. Schall follows:]
  Prepared Statement of John A. Schall, Executive Director, National 
              Business Coalition on E-Commerce and Privacy
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
members of the National Business Coalition on E-Commerce and Privacy, I 
want to thank you for permitting me the opportunity to discuss our 
views on HR 4678, the Consumer Privacy Protection Act of 2002. We 
believe that this is an important piece of legislation with profound 
consequences not only for e-commerce specifically, but for the economy 
as a whole.
    The National Business Coalition on E-Commerce and Privacy, of which 
I am the Executive Director, is comprised of 15 widely recognized 
companies dedicated to the pursuit of a balanced and uniform national 
policy pertaining to electronic commerce and privacy. We are engaged in 
virtually every sector of the economy and in every geographic location 
in the country, with over 40 million customers. We deliberately created 
a diverse coalition because the privacy issue is not just restricted to 
the financial services industry or the health care community, but 
touches on every sector of our economy.
    We believe that we are the only coalition whose membership includes 
financial and non-financial companies. Our wide range of companies are 
in manufacturing, like General Motors and John Deere Corporation; 
retail, like Home Depot; hospitality, like Six Continents Hotels; 
media, like General Electric; as well as some insurance and financial 
services companies such as Charles Schwab. These and our other members 
are all top competitors in the e-commerce marketplace, who use the 
Internet as an essential component of their ability to deliver goods 
and services to their customers.
    Our members have spent decades developing respected brand names and 
cultivating mutual trust with their customers, and I can assure every 
member of this Subcommittee that we are strongly committed to ensuring 
the privacy of our customers both on-line and off-line.
    It is for that reason that we are very encouraged by the provisions 
of HR 4678. We believe this bill moves the privacy debate in a positive 
and useful direction, and the Coalition would especially like to thank 
you, Mr. Chairman, for the enormous amount of work that you and your 
staff have put into analyzing the complexities of the privacy issue and 
in crafting this legislation.
    The Coalition is pleased that HR 4678 lays out a clear-cut and 
balanced privacy policy for the nation. By requiring the prominent 
posting of, and by requiring adherence to, a company's privacy 
policies, it is our view that HR 4678, more than any other piece of 
legislation currently before the Congress, assures that consumers have 
the information that they need in order to make informed choices about 
the use of personal information that pertains to them. A well-informed 
consumer is the heart of the matter because in a free market economy, 
knowledge empowers the customer. And we believe that the simple and 
straightforward step of letting consumers know how information is going 
to be used is the single most important and useful thing that we can do 
in the area of privacy.
    I will focus my remarks today on three areas that our Coalition 
deems especially important: 1) the creation of uniform national privacy 
standards; 2) the equal treatment of off-line and on-line information; 
and 3) private rights of action. We are pleased to see that HR 4678 
deals with each of these vital issues in a balanced and sensible way.
    By creating uniformity of state and local privacy laws, we believe 
HR 4678 demonstrates an appropriate appreciation of the nature of e-
commerce and the modern economy. An economy in which orders for new 
products and services can be made at the touch of a button. An economy 
that allows a customer in Oregon to purchase a product in Florida in a 
matter of mere seconds. An economy that is, in a very real way, an 
economy without borders.
    A patchwork of state and local laws would pose an enormous burden 
to, and fragmentation of, our economy. This would be a significant 
disincentive for companies to participate in the e-commerce 
marketplace, especially smaller companies, since they would be forced 
to navigate a sea of sometimes conflicting state and local privacy 
laws. Furthermore, the costs of complying with such conflicting laws 
would, more likely than not, be passed on to the consumer.
    Mr. Chairman, in the 50 states this year, over 548 privacy bills 
were introduced in the state legislatures. That's 548 different 
approaches to what 50 different state jurisdictions ought to do about 
the single issue we're discussing here today.
    And if that weren't enough, numerous local jurisdictions are now 
also jumping in and beginning to tackle the question of privacy. For 
example, in the State of California, San Mateo County and Daly City 
have both just passed their own privacy laws, with San Francisco, 
Berkeley, Marin County, Contra Costa County, and Alameda County all 
expected to do so in the coming weeks. And that's within just the San 
Francisco Bay Area. Surely there will be more after that. Remember, 
there are almost 100,000 local government jurisdictions in the United 
States. I'm not sure I want to even contemplate how a company could 
comply with 50 states multiplied by 100,000 localities multiplied by a 
minimum of 548 different privacy policies.
    Obviously, this is a recipe for a disjointed and inefficient 
marketplace. We, therefore, wish to strongly impress upon the Congress 
the urgent need to pass legislation with strong Federal preemption of 
both state and local laws. We believe that only by effectively 
providing a uniform privacy standard across the nation, will the 
Congress be able to avoid the problems that would accompany a multitude 
of legal requirements, with all of the ultimately unworkable 
administrative requirements that would imply.
    I would also add, Mr. Chairman, that those who argue that they seek 
a Federal privacy law to create ``a floor but not a ceiling,'' are 
begging a fundamental question of fairness. If privacy is to mean 
anything it is as a guarantee of certainty that consumers may know the 
rules of the road wherever they go in our economy. Far from being a 
protection of privacy, the ``floor and not a ceiling'' argument will 
result in confusion and conflicting standards that will benefit some 
consumers and punish others almost at random because of the mere 
accident of geographical location. In the world of floors and ceilings, 
where you live will be more important to your privacy than who you are.
    Secondly, the Coalition is greatly pleased to see that HR 4678 
treats information gathered on-line and off-line in the same way. Every 
one of our member companies operates both on-line and off-line, as 
does, I assume, almost every major American company, as well as a 
number of smaller ones. While we appreciate that those Members of 
Congress who seek to make a distinction between on-line and off-line 
information believed that they are assisting certain portions of the 
business community, the truth is that doing so, in fact, would be 
enormously burdensome and presents some very real difficulties.
    To begin with, as a general rule, all information collected by 
companies either on-line or off-line is stored in the same system. 
Often no distinction is made based on where the information is 
collected. To create such a distinction in law would be to invite 
enormous record keeping and financial burdens for private industry, to 
no practical real world benefit for the consumer.
    Furthermore, to create such a distinction becomes an exercise in 
the most profound hair splitting. Is information collected in person 
and then stored online considered online or offline? What if the 
information is collected over the telephone, or through a computer? Or 
transmitted from a telephone to a computer? These are the kinds of 
Solomonic judgments that will keep the courts busy for years if a 
distinction is made between on-line and off-line information.
    By treating similar information gathered on-line and off-line in 
the same way, HR 4678 sensibly balances the needs of industry with the 
privacy of the consumer, and assures the protection of both with a 
minimum of ambiguity.
    Thirdly, we are greatly pleased that HR 4678 does not permit 
private rights of action at a time when everyone agrees that our 
society is already far too litigious. The Coalition is well aware that 
this matter of private rights of action will be highly controversial 
and is an outgrowth of broader legal reform issues facing the Congress. 
But the likely result of a private right of action would be to dissuade 
companies from relying on e-commerce, or more likely, it would cause 
them to hedge their bets against frivolous lawsuits by adding costly 
procedures and protections. Such procedures and protections would not 
measurably aid consumers, but their costs would be passed on in the 
form of higher prices and reduced service.
    In the context of privacy, there is concrete evidence to show that 
existing law has more than sufficed to protect consumer interests. The 
Federal Trade Commission has recognized that existing enforcement 
authority deals with most violations of privacy law and opening the 
door to private rights of action would simply create an environment 
conducive to even more unnecessary lawsuits in an already clogged and 
expensive legal system. I would also point out that under this bill, 
the states would still have existing private rights of action and the 
litigation authority already vested in them through the mini-FTC Acts.
    Instead of creating a new private right of action, HR 4678 more 
appropriately creates a Self Regulatory Organization (SRO) process in 
which arbitration may be binding. This possibility of binding 
arbitration is critical--otherwise the SRO process would represent 
little more than yet another expensive layer of compliance.
    Mr. Chairman and Members of this Subcommittee, HR 4678 is a 
reasoned and measured step forward in the privacy debate, and the most 
promising alternative currently pending in the Congress. We would like 
to suggest, however, some potential sandtraps to avoid and some 
drafting improvements to HR 4678, where possible.
    For example, we would highlight the need to apply the opt-out 
provisions of the bill to the use of information, rather than to the 
collection of information, as the bill currently requires. Likewise, 
our Coalition companies, who all deal in both the business-to-business 
and the business-to-consumer environments, would like it to be made 
more explicit that HR 4678 applies to business-to-consumer 
relationships and not to business-to-business transactions. With regard 
to remedies and enforcement, we believe that it would be helpful to 
explicitly prohibit class action lawsuits. Finally, unnecessary access 
provisions are best avoided because they could ironically create 
perverse incentives for companies to centrally maintain exactly the 
sort of customer profiles that we all seek to avoid.
    Mr. Chairman and Members of this Subcommittee, once again, on 
behalf of the National Business Coalition on E-Commerce and Privacy, I 
would like to congratulate you on your leadership in successfully 
moving the privacy debate forward and in drafting HR 4678. We believe 
that with this legislation, you have taken a singularly positive step, 
and that you have struck a prudent and sensible balance between the 
privacy of the consumer and the needs of the business community. We 
hope to be able to continue to work with you as the privacy debate 
develops, and I would now be happy to answer any questions that you may 
have.
                               Attachment
         national business coalition on e-commerce and privacy
    Member Companies: American Century Investments; AMVESCAP; 
CheckFree; CIGNA; Deere & Company; Dupont; Fidelity Investments; 
Fortis, Inc.; General Electric; General Motors; The Home Depot; 
Investment Company Institute; MBNA America; Charles Schwab & Company; 
and Six Continents Hotels

    Mr. Stearns. Yes, thank you, John.
    Ms. Whitener. Welcome.

                  STATEMENT OF REBECCA WHITENER

    Ms. Whitener. Thank you, Mr. Chairman. It is a pleasure to 
be here today to discuss H.R. 4678, the Consumer Privacy 
Protection Act of 20020.
    As Director of Privacy Services for EDS, I am responsible 
for the global strategy, the service line offering development 
and the methodology for EDS clients' focused privacy services.
    Mr. Chairman, H.R. 4678 is a culmination of many hearings 
and discussions with people of different points of view. You 
have proceeded carefully and are to be commended for that 
approach. Your bill understands that the protection of privacy 
and data and the ability to share information are good for 
business and consumers alike.
    EDS's Chairman and CEO, Dick Brown, is chairman of the 
Digital Economy Task Force of the Business Roundtable. That 
task force has made several recommendations on how we should 
proceed in ensuring that any legislative remedies do not impede 
electronic commerce.
    First, do not hinder self-regulation efforts of industry to 
give consumers informed choice. By and large, industry has done 
a good job. If a company decides to share information in a 
perceived detrimental way, the market is pretty quick to act.
    Second, ensure consistency and certainty in the marketplace 
through a national standard in rules. Without strong Federal 
preemption, there will be confusion among consumers, and 
business will reconsider engaging in electronic transactions.
    Next, have one Federal agency responsible for regulating 
consumer privacy. Again, it is unrealistic to expect business 
and consumers to coordinate with multiple entities.
    Four, treat e-commerce as any other form of commerce. The 
Internet is becoming so ingrained in business processes that e-
commerce should not be singled out for any special regulatory 
treatment.
    Fifth, keep a level, consistent playing ground between 
government and business. Do not prohibit the selling of 
information by ABC Book Company while allowing the Department 
of Motor Vehicles to sell driver's license information.
    Finally, there should not be any new private right of 
action. It is just not necessary. The market and existing laws 
and regulations will do the job.
    Mr. Chairman, H.R. 4678 goes a long way to meeting those 
requirements, and it encompasses much of what EDS has included 
in its global privacy and data protection policies. We are 
especially pleased to see that you have addressed security 
concerns in your legislation. Cyber security continues to be a 
growing problem and there are significant indications that more 
should be done to protect data and networks.
    The numbers are staggering. In 2000 computer, viruses 
worldwide cost $17.1 billion in damages. EDS alone encounters 
more than 650 attempted break-ins and three new viruses every 
day on servers that it runs for 2,500 clients. A major virus 
like ``Code Red'' or ``ILOVEYOU'' costs billions to eliminate, 
the release last week of the President's National Strategy to 
Secure Cyberspace is a step in the right direction. It 
highlights many of the areas that must be addressed so that 
consumers can be confident that their transactions and 
information shared with government and businesses are secure.
    Now onto some specific comments about section 105: In 
paragraph a(2) we agree with your requirement that senior 
management consider and improve an information security policy. 
Security awareness needs to be raised in the consciousness of 
senior management, and this will go a long way to that end.
    Paragraph a(3)(B) makes a great deal of sense. Most 
organizations have someone responsible for IT security, but in 
many cases they aren't designated or there are unclear lines of 
responsibility.
    Paragraph b(1), there are a number of sources that can be 
used for timely notification. We believe in flexibility as to 
the source of a notification and a corrective action taken, 
which is more clearly outlined in the exceptions in 105 b(2). 
This will provide a broadened approach based on company policy.
    Paragraph b(1), corrective action implies that there is an 
effective process within an organization to monitor threat 
warnings and know when to effectively apply remediation. This 
is a critical security capability.
    In paragraph c the process for how the Commission will base 
the decision to hold the organization culpable in violating 
section 105 is unclear. We agree on the importance of the role 
placed on self-regulatory programs as defined in section 106.
    In e, the requirement for regular compliance testing which 
shall take place not less frequently than every 4 years ensures 
self-reviews and self-certifications are accurate. Companies 
should be given the choice of addressing this compliance 
testing through their own internal audit programs, through 
privacy consultants and through public accounting firms.
    We would be glad to work with your staff on these points.
    Mr. Chairman, we appreciate the opportunity to testify on 
H.R. 4678. We want to continue working with you next year on 
this legislation. If it becomes necessary to pass a consumer 
privacy bill, then we want to make sure that it supports the 
growth of additional economy rather than placing roadblocks in 
the way and limiting those who can enjoy the benefits of the 
new economy.
    Thank you.
    [The prepared statement of Rebecca Whitener follows:]
 Prepared Statement of Rebecca Whitener, Director of Privacy Services, 
                   EDS Security and Privacy Services
    Thank you Mr. Chairman.
    It is a pleasure to be here today to discuss HR 4678, the Consumer 
Privacy Protection Act of 2002.
    I am Rebecca Whitener, Director of Privacy Services for EDS. In 
that capacity I am responsible for the global strategy, service line 
offering development, and methodology for EDS client-focused Privacy 
services. Prior to joining EDS, I was a co-founder and Chief Operating 
Officer of Fiderus, a Security and Privacy Consulting firm, and before 
that a Principal in charge of global privacy services at IBM. In my 
career, I have worked with companies around the world to develop 
business solutions for security and privacy. In 2000; I had the 
privilege of serving on the Federal Trade Commission Advisory Committee 
for Online Access and Security.
    Privacy is one of those issues that generate a great deal of 
passion in any discussion. We Americans have always viewed privacy as a 
core principle of our society and democratic way of life. We hold 
privacy dear and defend it with great vigor when we believe it is 
threatened.
    But the Digital Economy, with all its promises, poses interesting 
dilemmas on our view of privacy. For instance, do we consider an online 
bookseller sending us an e-mail about a release from our favorite 
author an invasion of privacy or effective marketing? Do we feel that 
the selling of information to a third party so that we can be made 
aware of a new product is an abuse of consumer trust or an important 
source of information?
    Mr. Chairman, HR 4678 is the culmination of many hearings and 
discussions with people of different points of view. You have proceeded 
carefully and are to be commended for that approach. Your bill 
understands that the protection of privacy and data and the ability to 
share information, are good for business and consumers alike.
    EDS' Chairman and CEO Dick Brown is chairman of the Digital Economy 
Task Force of the Business Roundtable. That task force has made several 
recommendations on how we should proceed in ensuring that any 
legislative remedies do not impede electronic commerce.
    First, do not hinder self-regulation efforts of industry to give 
consumers informed choice. By and large, industry has done a good job. 
If a company decides to share information in a perceived detrimental 
way, the market is pretty quick to act.
    Second, ensure consistency and certainty in the marketplace through 
a national standard in rules. Without strong federal preemption there 
will be confusion among consumers, and business will reconsider 
engaging in more efficient, electronic transactions. Many states are 
now pursing their own legislative remedies and the patchwork of laws 
that may emerge will surely be a roadblock to the Digital Economy.
    Next, have one federal agency responsible for regulating consumer 
privacy. Again, it is unrealistic to expect business and consumers to 
coordinate with multiple entities.
    Fourth, treat e-commerce as any other form of commerce. The 
Internet is becoming so ingrained in business processes that e-commerce 
should not be singled out for any special regulatory treatment. 
Unfortunately, there are those who seek to discriminate against this 
way of doing business.
    Fifth, keep a level, consistent playing ground between government 
and business. Do not prohibit the selling of information by the ABC 
book company while allowing the Department of Motor Vehicles to sell 
drivers' license records.
    Finally, there should not be any new private right of action. It is 
just not necessary. The market and existing laws and regulations will 
do the job.
    Mr. Chairman, HR 4678 goes a long way to meeting these 
requirements. And it encompasses much of what EDS has included in its 
Global Privacy and Data Protection Policies.
    There are, however, several specific issues I would like to 
highlight in certain sections of the bill.
    In Section 101, Privacy Notices to Consumers, subsection b (Forms 
and Content of Notice), point two could also include a physical mail 
address as an option for obtaining a privacy statement. In that same 
subsection, point three would be strengthened if it read ``If the 
notice is required under subsection (a)(2), a statement that there has 
been a material change in the organization's privacy policy, and where 
in the privacy policy the change(s) have occurred.
    A comment on Section 109, Effect on Other Laws, subsection d. This 
is most welcome as we see states passing inconsistent privacy laws. The 
other thing we are seeing is that some counties and even cities are 
contemplating passing laws because they don't think the state laws do 
the right job. If cities start doing the same thing then we will never 
know what law prevails. Preemption must be part of any legislation.
    In the Improved Identity Theft Data section, a reflection of some 
of the best practices that are starting to appear in the proposed state 
measures may be useful, particularly as they relate to the use of 
social security numbers.
    In Section 304, Harmonization of International Privacy Laws, 
Regulations and Agreements, the approach is on target. Businesses 
should have the freedom to operate globally under harmonized laws. 
Processes that leave the door open for a claim of inadequacy and that 
continue a bilateral agreement do little to promote e-commerce.
    We are especially pleased to see that you have addressed security 
concerns in your legislation. Cyber security continues to be a growing 
problem and there are significant indications that more should be done 
to protect data and networks.
    The numbers are staggering. In 2000, computer viruses worldwide 
cost $17.1 billion in damages. EDS alone counters more than 650 
attempted break-ins and three new viruses every day on servers it runs 
for 2500 clients. A major virus like Code Red or ILOVEYOU costs 
billions to eliminate.
    The release last week of the President's National Strategy to 
Secure Cyberspace is a step in the right direction. It highlights many 
of the areas that must be addressed so that consumers can be confident 
that their transactions and information shared with government and 
business are secure.
    As part of our education effort on the urgency of protecting our 
economic infrastructure, we are submitting a high level security and 
privacy checklist that can be used by companies, organizations and 
governments. It may seem simple and straightforward but we find a 
number of entities needing advice about the basic steps.
    Now on to some specific comments about Section 105.
    In paragraph a(2) we agree with the requirement that senior 
management consider and approve an information security policy. 
Security awareness needs to be raised in the consciousness of senior 
management and this will go a long way to that end.
    Paragraph a(3)(B) makes a great deal of sense. Most organizations 
have someone responsible for IT security but in many cases they aren't 
designated or there are unclear lines of responsibility.
    Paragraph b(1): There are a number of sources that can be used for 
timely notification. We believe that flexibility as to the source of 
the notification and the corrective action taken, which is more clearly 
outlined in the Exceptions in 105(b)(2). This will provide a broadened 
approach based on company policy.
    Paragraph b(1): Corrective action implies that there is an 
effective process within an organization to monitor threat warnings and 
know when to effectively apply remediation. This is a critical security 
capability.
    In Paragraph c, the process for how the Commission will base a 
decision to hold the organization culpable in violating Section 105 is 
unclear.
    We agree on the importance of the role placed on self-regulatory 
programs as defined in Section 106. In (E) the requirement for 
``regular compliance testing which shall take place not less frequently 
than every 4 years'' to ensure self-reviews and self-certifications are 
accurate. Companies should be given the choice of addressing this 
compliance testing through their own Internal Audit programs, through 
privacy consultants, and through public accounting firms.
    We would be glad to work with your staff on these points.
    Mr. Chairman, we appreciate the opportunity to testify on HR 4678. 
We want to continue working with you next year on this legislation. If 
it becomes necessary to pass a consumer privacy bill then we want to 
make sure that it supports the growth of the Digital Economy rather 
than placing roadblocks in the way and limiting those who can enjoy the 
benefits of the new economy.
    I will be happy to answer any questions.
    Thank you.

    Mr. Stearns. Thank you.
    Ms. Barrett.

                  STATEMENT OF JENNIFER BARRETT

    Ms. Barrett. Thank you, Mr. Chairman.
    Mr. Stearns. I also want to thank you. I think you came the 
farthest to be here this morning.
    Ms. Barrett. Thank you. I guess I did.
    Thank you, Chairman Stearns and members of the 
subcommittee. Thank you for the opportunity to again 
participate in your hearings and today share the perspective of 
three companies on Titles I and III of H.R. 4678. The companies 
are Acxiom Corporation, a leading provider of innovative data 
management services and technology; Experian Marketing 
Services, a division of Experian North America, a leader in 
enabling organizations to make fast, informed decisions to 
improve and personalize relationships with their customers; and 
third, Trilegiant Corporation, one of the Nation's largest 
direct mail marketers and member service providers. Our clients 
represent a who's-who of America's leading companies, and we 
are always proud of the reputation for helping them sell better 
products, smarter, faster and at a lower cost.
    We strongly support a balanced approach to the use of 
personal information. We believe that the inappropriate use of 
information to defraud or discriminate must be illegal. At the 
same time, the free flow of information this Nation enjoys 
today has greatly contributed to our economic growth and 
stability. Because of information sharing, consumers have 
greater choice in variety, goods and services cost less, and 
transactions are completed faster and more easily.
    First, we want to commend the committee for the extensive 
and thoughtful approach that it has taken in drafting this 
legislation. This committee has studied the complex issues 
involving consumer privacy to a greater degree than any other 
body of Congress, and your understanding of these issues is 
reflected in the bill.
    One of the key questions in today's debate about privacy is 
whether legislation should be specific to the on-line sector or 
whether legislation should be particular, technology neutral, 
covering both on- and off-line. It is difficult to argue that a 
corporation's policies should be different in these two worlds 
since every growth-oriented company inevitably combines data 
from both. However, there are practical and important 
differences in how notice can be delivered and choice can be 
exercised.
    In order to be fair to all mediums, the standard for 
providing a policy must be upon request. The interactive nature 
of the Internet allows a consumer to make an immediate informed 
choice about information use. However, this interactive model 
is difficult, if not impossible, to achieve in the off-line 
world.
    We believe section 101 of the bill is intended to recognize 
and allow for these practical differences, and we want to 
continue to work with the committee to ensure that this upon-
request distinction is clear in the law so that businesses have 
the necessary flexibility to conduct successful marketing 
campaigns in this difficult economic environment.
    With regard to self-regulatory programs, section 106 of the 
bill recognizes the important role that these initiatives have 
played. Seal programs such as BBBOnline and TrustE, along with 
the Direct Marketing Association's ``Privacy Promise'' 
represent effective self-regulatory standards for on-line, off-
line and telephone-based relationships. These practices have a 
proven record of success and conform nicely to the provisions 
in H.R. 4678, and we therefore support the bill's language with 
regard to approved self-regulatory programs.
    Enforcement is one of the most difficult aspects of privacy 
that we have to deal with. We believe H.R. 4678 has proposed a 
reasonable enforcement mechanism by building on existing proven 
methods. Far too often legislation is simply not enforced for 
one reason or another. However, an increasing number of recent 
successful enforcement actions have been taken by the Federal 
Trade Commission demonstrating its effectiveness in the privacy 
area.
    Furthermore, with the straightforward nature of the bill, 
the three companies agree with the committee that the need to 
prescribe regulations is not necessary to enforce this title. 
Since there are in excess of 15 Federal privacy-related laws in 
the U.S., it is critical that any broad-based piece of 
legislation recognize and respect these existing laws and not 
create conflicting requirements.
    There are specific practices that need to be treated 
differently from general information collected and used by 
commercial entities, such as affiliate sharing of credit 
information within a financial institution, as covered under 
the Fair Credit Reporting Act, and the sharing of sensitive 
information about children, covered under COPPA.
    Section 109 recognizes these specific situations and 
provides the right kind of harmonization with other existing 
laws.
    Section 109(d), Preemption of State Privacy Laws, is a 
necessary requirement for both consumers and business. Nothing 
will be more confusing to consumers than to have differing 
privacy laws in each State or locality. As we have seen with 
financial laws recently passed in North Dakota and the rush to 
enact similar laws at the local level, such as those in Daly 
City, Contra Costa County and Berkeley, California, a myriad of 
conflicting State or local laws make it imperative that a 
preemptive bill of this nature become law.
    There are three risks if States and localities are 
permitted to continue to enact their own privacy laws. First, 
is that the State and local governments lack the dedicated 
resources to conduct a thorough analysis of the issues that 
this committee has done. And, in addition, privacy becomes a 
very political issue.
    Second, for consumers, understanding their rights and being 
able to easily enforce them when an infraction occurs will be 
extremely difficult, which in turn seriously diminishes the 
effectiveness of the law.
    And third, local law enforcement historically has not 
focused on these kinds of issues, while the FTC has the 
resources and needed expertise.
    In short, without preemption, consumers will be confused 
and the effectiveness of enforcement will be reduced.
    Finally, I would like to comment on one aspect of the bill 
that is not found, and this is the issue of access. We believe 
that by not requiring--including the requirement for consumer 
access, H.R. 4678 has properly recognized the inherent pitfalls 
of such a requirement. Each of the four fair information 
practices principles--notice, choice, access and security--must 
be applied uniquely to strike a balance between the value 
gained by consumers, business and society and the associated 
cost.
    The primary purpose of access is to assure that information 
a company maintains about an individual is accurate. However, 
access for the sake of curiosity is never justified. Today, 
without even a legal mandate, companies provide consumers ready 
access to current account information. Coupled with the 
consumer's ability to opt out of having his or her name shared 
for unrelated purposes and the underlying concern about privacy 
and accuracy are thus satisfied.
    In conclusion, while the three companies I represent today 
might not agree on all the detailed provisions of H.R. 4678, we 
believe Titles I and II represent a very balanced approach to 
protecting consumers' privacy while allowing information flows 
that bring value to the consumer. I do, however, urge the 
committee to work closely with the credit bureaus and their 
trade associations to make sure that Title II is effective in 
preventing identity theft.
    Mr. Chairman, thank you for the opportunity today to 
testify on behalf of Acxiom, Experian Marketing Services and 
Trilegiant. I request our formal statements be entered into the 
record and am pleased to answer any questions.
    [The prepared statement of Jennifer Barrett follows:]
 Prepared Statement of Jennifer Barrett, Chief Privacy Officer, Acxiom 
                              Corporation
    Chairman Stearns, Ranking Member Towns, and members of the 
Subcommittee, thank you for the opportunity to participate in this 
timely hearing and to share the perspective of the Companies on Titles 
I and III of H.R. 4678--the ``Consumer Privacy Protection Act of 
2002''. The three corporations listed in the caption sheet strongly 
support a balanced approach to the use of personal information. 
Descriptive information on these companies may be found in the appendix 
attached.
    I will not make specific comments about Title II. Instead, I urge 
the Committee to work closely with the Credit Bureaus and their trade 
associations to make certain Title II is effective in preventing 
identity theft and improves the remedies available for those whose 
identity has been stolen.
    Information products from our three companies fill an important gap 
in today's business-to-consumer relationship. In our information-based 
economy, companies succeed not just by meeting their customers' 
expectations, but by exceeding them with superior products and services 
of the highest quality. Businesses do not instinctively know everything 
their customers want and thus need information to better understand 
what consumers both want and need. Companies such as Acxiom, Experian 
and Trilegiant are the vehicles by which businesses acquire or better 
use this vital consumer information.
    The efficient flow of consumer information to businesses has 
significantly contributed to our nation's economic growth and stability 
by (1) enhancing variety in consumer goods and services; (2) 
facilitating lower domestic prices as compared to foreign markets; and 
(3) accelerating the speed and ease with which transactions can be 
completed. This flow should be permitted to continue.
    Notwithstanding these successes, the inappropriate use of 
information to defraud or discriminate against consumers should be 
illegal. H.R. 4678 is a bill that makes every effort to balance these 
concerns, and we are pleased to be here today to comment specifically 
on a number of aspects of the bill.
Comprehensive Coverage of Both Online and Offline Practices
    In the debate about data privacy, public policy makers are asking 
some very good questions regarding whether legislation should be 
specific to the online sector or technology neutral covering both 
online and offline practices.
    It is difficult to argue that a corporation's policies governing 
the collection and use of personally identifiable information should be 
different in the online and offline environments. Further, even if 
legislation was focused only on online information, the offline 
environment would be affected equally, since online and offline data is 
inevitably combined at some point by every company.
    Even so, there are practical differences in the online and offline 
worlds that policy makers must carefully consider for legislation that 
is technology neutral. Self-regulatory regimes already in place 
recognize these practical differences, so policy makers should look to 
these practices as the basis of any future legislation deemed 
necessary.
    Most of the clients of our three companies, as well as our data 
sources, operate in multiple environments, too. For example, many 
catalog companies have an online catalog, and many retailers are 
becoming dominant forces on the Internet. In fact, only a very few 
companies exist solely in an online environment today--and even these 
companies depend on offline information, which they merge with online 
information, to increase efficiency and to stay competitive.
    However, there are important differences in how notice can be 
delivered and choice exercised in the online and offline environments. 
Understanding these differences is at the heart of the online/offline 
debate because self-regulatory practices or legal standards must allow 
enough flexibility to provide consumers effective notice and choice 
across different media.
    In order to be fair in all mediums, the standard for providing a 
full statement of information practices, usually referred to as a 
privacy policy, must be ``upon request.''
Online Notice
    In an interactive online environment, an ``on-request'' standard 
can easily be provided by a conspicuous link to a privacy policy. The 
interactive nature of the Internet also allows a consumer to make 
immediate, informed choices about how his or her information can be 
used. In the marketing industry, ``opt-out'' is the standard for 
informed consent, but the interactive nature of the Internet is also 
allowing new voluntary methods of permission-based marketing to 
flourish as well. This interactive nature has resulted in the wide 
spread acceptance of online privacy standards like those proposed in 
Title I. Nearly 100 percent of the 100 largest consumer websites have a 
link to a privacy statement.
Offline Notice
    However, this interactive model is difficult, if not impossible, to 
achieve in the offline marketing context. In the telemarketing 
environment, delivering the same kind of notice and gaining the same 
kind of consent would be financially onerous, could destroy otherwise 
successful marketing campaigns, and could result in very negative 
customer relations.
    In the offline environment, there must be flexibility to deliver 
notice and choice, upon request, through the mail in paper form. 
Alternatively, businesses should be able to direct consumers to a 
telephone number or website to access a company's policy. Also, 
retailers should be allowed to deliver notices at the checkout counter. 
In other words, businesses must have the flexibility to adopt practices 
that best meet the medium in which they are engaged, even though notice 
and choice about marketing information should be the policy in all 
mediums.
    We believe Sections 101 (a) and (b) of H.R. 4678, Privacy Notices 
to Consumers, Notice Required and Form and Contents of Notice, are 
intended to recognize and allow for these practical differences in 
collection, notice and choice methods that exist in the online, offline 
and telephone environments. We want to continue to work with the 
Committee to ensure this ``upon request'' distinction is clear in the 
law, so that businesses have the necessary flexibility to conduct 
successful marketing campaigns in this difficult economic environment.
Self-Regulatory Programs
    Section 106, Self-Regulatory Programs, further recognizes the 
important role of self-regulatory programs that have served both the 
consumer and the business community well in areas of information use 
where legislation has not previously existed.
    Such programs as the online seal programs from BBBOnline and 
TrustE, along with the Direct Marketing Association's ``Privacy 
Promise,'' represent very effective self-regulatory standards for 
online, offline and telephone based relationships. These practices 
generally require companies to provide consumers choice through an 
opportunity to ``opt-out'' of information sharing, to develop 
appropriate guidelines to keep the information secure, offer the 
consumer third party recourse for settling disputes, and the option to 
go to the Federal Trade Commission under Section 5(a)(1) of the Federal 
Trade Commission Act (15 U.S.C. 45 (a) (1)) where prior efforts to 
resolve the conflict have failed.
    All of these practices, which are in effect today and have a proven 
record of success, conform nicely with the provisions in H.R. 4678, and 
we therefore support the bill's language with regard to self-regulatory 
standards.
Enforcement
    We believe H.R. 4678 has proposed a reasonable enforcement 
mechanism in Section 107, Enforcement, by building on existing and 
proven enforcement methods. By doubling the amount of fines that may be 
imposed, this approach to enforcement becomes an even more effective 
deterrent.
    Enforcement is one of the hardest aspects of privacy with which to 
deal. Far too often, legislation is not enforced for one reason or 
another. However, an increasing number of successful enforcement 
actions have recently been undertaken by the Federal Trade Commission. 
Such actions have demonstrated the effectiveness of the FTC in dealing 
with privacy and security issues.
    Furthermore, with the self-regulatory choices and the 
straightforward nature of the provisions of H.R. 4678, the Companies 
agree with the Committee that the need to prescribe regulations is not 
necessary to enforce this title. The regulations in effect already 
exist in the Federal Trade Commission Act.
Harmonization with Other Laws
    Since there are in excess of fifteen (15) federal privacy-related 
laws in the U.S., it is critical that any broad-based legislation, such 
as H.R. 4678, recognize and respect these existing laws and not create 
conflicting requirements that do not serve either the consumer or the 
business community.
    There are specific practices that need to be treated differently 
from general personal information collected and used by commercial 
entities, such as affiliate sharing of credit information within a 
financial institution covered under the Fair Credit Reporting Act, and 
the sharing of sensitive information about children under the age of 13 
under the Children's Online Privacy Protection Act.
    In Section 109, Effect on Other Laws, H.R. 4678 properly recognizes 
these various laws and the requirements they each impose and offers the 
right kind of harmonization.
State Preemption
    Section 109(d), Preemption of State Privacy Laws, is a necessary 
requirement both for the consumer and the business community. Nothing 
will be more confusing to concerned consumers, nor create more 
inefficiency to commerce, than to have differing privacy laws in each 
state or locality. As we have seen recently in North Dakota, and at the 
local level in Daly City, Contra Costa County and Berkeley, California, 
there appears to be a rush to enact unduly restrictive financial 
privacy laws. We suggest that these laws serve no other purpose than to 
dramatize the need for federal preemption, which H.R. 4678 offers.
    If states and localities are permitted to continue enacting their 
own versions of privacy laws, several risks exist. First, in light of 
the fact that no state or locality is likely to have the necessary 
resources to conduct a comprehensive and thorough analysis of the 
issues surrounding the use of information such as this committee has 
conducted, plus the fact that the privacy issue is a very highly 
charged political issue, legislation passed by states and localities 
will almost surely result in serious unintended consequences. Second, 
for consumers, to understand their rights and be able to easily enforce 
their rights when they believe an infraction has taken place will be 
extremely difficult, thereby diminishing the effectiveness of any 
enforcement action. Third, local law enforcement has not historically 
focused on these kinds of issues and the Federal Trade Commission has 
more resources and more expertise to deal with consumer complaints 
regarding privacy than any state or local authority. In short, without 
state preemption, consumers will be confused and the effectiveness of 
enforcement will be reduced.
International Issues
    Title III--International Provisions--offers a good first step to 
address the growing concern of companies doing business outside the 
U.S. regarding the wide variety of privacy laws enacted in other 
countries.
    Dealing with information flows across borders is an extremely 
complex issue and we have far too few facts on which to evaluate 
effective solutions. The bill's requirement that the Comptroller 
General of the United States conduct a study and make recommendations 
regarding remediation of discriminatory activities should provide the 
facts needed to identify solutions that will work.
Access to Information
    Few would argue that the four Fa ir Information Practices 
Principles--notice, choice, access and security--are not important 
consumer rights. Unfortunately, these principles are usually recited 
without considering their true complexity. Practical approaches such as 
H.R. 4678--whether statutory or self-regulatory--recognize that each of 
these principles must be applied in sensible ways appropriately 
tailored for the purpose for which the information is used.
    The application of each principle must strike a balance between the 
value gained by consumers, businesses and society and the costs 
associated with each. Sometimes that balance prohibits application of 
one or more of the fair information principles. For example, under the 
Fair Credit Reporting Act (FCRA), the nation's oldest privacy statute, 
consumers do not have a choice about being included in the national 
credit reporting system. If choice were an option, those who are lax on 
paying their bills would probably choose not to have that information 
disclosed to potential lenders which would result in increased lending 
risk for creditors and increased credit costs for consumers. In effect, 
there would be fewer financial service products for consumers.
    The principle of access, arguably the most complex issue in the 
debate about consumer privacy, must be thoughtfully applied because it 
raises significant privacy, data security and cost considerations for 
consumers, businesses, and society in general. Unfortunately, perhaps 
because of the complexity of this issue, many legislative proposals 
dispense with the access principle by simply citing the obscure 
standard that ``reasonable access'' should be provided upon the 
consumer's request. While sounding sensible on its face, such an 
undefined standard delegates too much authority to regulators and the 
courts to develop public policy about consumer access.
    As explained below, we believe that, by not including a requirement 
for consumer access, H.R. 4678 has properly recognized the inherent 
pitfalls of such a requirement.
    Allowing consumer access, by the very nature of the process, makes 
the data less secure. As a result, appropriate authentication and 
verification systems would have to be implemented. Providing access 
also means that information held by an organization must be collected 
into personal, comprehensive profiles, which raises new privacy 
concerns. Finally, the costs associated with data collection, new 
security systems for authentication, and customer service staff 
necessary to administer disclosure, dispute and correction systems, can 
be enormous.
    The primary purpose of access is to make certain the information a 
company maintains about an individual is accurate. For example, if a 
company's use of inaccurate or fraudulent information could cause harm 
to an individual through over-billing, or is used to make a decision 
that could deny a consumer a benefit or service such as credit, 
insurance or employment, then access should be provided. In these 
cases, it is in the best interest of both the consumer and the business 
to be sure the personal information about a consumer is correct.
    However, access for the sake of curiosity is not justified when the 
costs to society and the threat to personal privacy are significant. In 
such instances, access should be discouraged if there is no legitimate 
identified harm to an individual such as a denial of a benefit or 
service.
    Today, even without a legal mandate, almost every company provides 
consumers ready access to current account information, the very 
information which, if inaccurate, could result in a benefit or service 
being denied. This kind of targeted access to personal information 
reflects business' interest in accurate, up-to-date records for billing 
purposes, as well as a customer-focused response to consumer demand. 
Many Internet-based companies offer access not only to account and 
billing information but also to customer-supplied information used to 
predict consumer preferences.
    Providing access to consumers would be of little benefit, and such 
access likely would pose a greater threat to privacy than currently 
exists. The nature of information in marketing databases would limit 
identity authentication largely to name and address (which is widely 
available in public sources, such as telephone directories) and, 
therefore, would greatly limit the ability of businesses to validate 
consumer identities for disclosure purposes. Accordingly, access 
requirements should be constructed so as to balance the benefits to 
consumers against the security risks to them, and the costs to 
companies that hold the data.
    Allowing access to marketing databases would be enormously 
expensive. While that expense is justified and necessary with regard to 
information governed by the Fair Credit Reporting Act, it is of 
questionable value for data used only for marketing purposes.
    A consumer's current ability to opt out of having their name shared 
for direct marketing purposes satisfies the underlying concern about 
privacy and accuracy without imposing undue and unnecessary costs to 
businesses or risks to consumers that would result from access 
requirements.
    H.R. 4678 has rightly not included a provision for access in the 
bill.
Conclusions
    While Acxiom, Experian and Trilegiant do not agree on all the 
detailed provisions of H.R. 4678, we believe the bill, in its current 
form, and subject to the our comments herein, represents a well-
intentioned, balanced approach to protecting consumer privacy while 
allowing information flows that bring value to consumers and to our 
economy. We look forward to working with you to ensure these intentions 
are realized throughout the legislative process.
    Mr. Chairman, thank you for the opportunity to appear today on 
behalf of these three companies, Acxiom Corporation, Experian Marketing 
Services and Trilegiant. I am prepared to furnish any additional 
information to the Committee, and answer any questions you may have.
                                APPENDIX
    The Companies include some of the most prominent organizations in 
the country involved in helping facilitate the appropriate use of 
information in ways that bring value to both the consumer and the 
business community.
Acxiom Corporation
    For over thirty years, Acxiom Corporation has provided data 
management services and technology. The company helps both large and 
small businesses sell better products and services smarter, faster, and 
at a lower cost. Acxiom's business includes two distinct components: 
database management services and information products. Database 
management services, representing almost 90% of the company's revenue, 
assist businesses in better managing their customer information, 
helping them save costs and secure a better return on their marketing 
efforts. Acxiom's information products--directories, customer 
enhancement and list products--provide needed intelligence to help 
businesses overcome the time and distance of less-personal customer 
relationships.
    Acxiom has approximately 5,000 employees worldwide, has processing 
centers in Arkansas, Illinois, Arizona and California, and has 
operations in the UK, Australia, France and Japan.
Experian Marketing Services
    Experian is one of the world's leading information solutions 
companies. Experian Marketing Solutions enables organizations to make 
fast, informed decisions to improve and personalize relationships with 
their customers. This is done by combining decision-making software and 
systems with some of the world's most comprehensive databases of 
information about consumers, businesses, and property.
    Experian Information Solutions is a consumer reporting agency that 
enables businesses to make objective, safe, secure loans and minimize 
other credit-related losses, while providing consumers instant access 
to credit. Experian also provides reference services, analytic 
services, and consulting solutions. Experian employs 6,500 people in 
North America, with major facilities in Costa Mesa, CA; Allen, TX; 
Denver, CO; Atlanta, GA; Mt. Pleasant, IA; Schaumber, IL: Lincoln, NE; 
Parsippany, NJ; Albany, NY; New York City, NY; Rye, NY; and Rutland, 
VT.
Direct Marketing Services
    Experian direct marketing services help bring businesses and their 
customers together. Businesses rely on Experian to help them better 
understand their markets and the characteristics of the people who do 
business with them. Understanding the marketplace makes possible 
faster, more efficient product development and delivery, better retail 
outlet and service center locations, improved customer service, more 
cost-effective advertising, and lower costs for consumers. By 
identifying the characteristics of consumers likely to be interested in 
certain kinds of products and services, Experian helps marketers more 
efficiently reach consumers who are most likely to be interested in a 
business's products or services.
Credit Reporting
    Experian and the companies from which it was formed have provided 
credit reporting services for more than 100 years. Today, hundreds of 
millions of credit reports are provided to lenders annually. The 
ability of creditors to check a person's credit references in an 
instant enables them to make rapid, sound, and objective lending 
decisions. That ability helps consumers get the credit they need and 
deserve faster and cheaper than anywhere else in the world.
Customer Relationship Management
    Experian helps businesses establish and develop long-lasting 
customer relationships through responsible information use. We help 
businesses get a clearer picture of their customers across multiple 
business units and market segments. We help companies understand why 
certain kinds of people shop with them and what the customer needs. 
With that clearer understanding, Experian then is able to provide 
information services that help businesses initiate relationships with 
new customers, assist the businesses in developing new, desirable 
products and services, and aid in providing pleasant shopping and 
effective customer service. The result is a better shopping experience 
for consumers and more profitable operation for businesses.
Automotive Information Services
    Experian Automotive Information Services specialize in the 
collection and dissemination of vehicular data from each of the 51 
United States jurisdictions. The information is utilized to provide 
valuable services to auto dealers, manufacturers, consumers and 
advocacy organizations, advertising agencies and internet information 
sites, law enforcement and tollway authorities. Detailed vehicle 
history reports enable consumers to make informed used-auto purchasing 
decisions. Manufacturers rely on our services to manage recalls and 
conduct market analysis to manage product supply and improve service.
Electronic Commerce Services
    Experian's electronic commerce division helps businesses establish 
a presence in the electronic marketplace, develop relationships with 
online consumers, and ensure consumers and businesses enjoy positive, 
safe transactions.
Individual Reference Services
    Experian reference services help people, businesses, non-profit 
organizations, government agencies, law enforcement, and other 
organizations identify, locate, and verify the identity of individuals. 
The most recognized individual reference services are the telephone 
book and directory assistance--services you use every day. They usually 
include only names, addresses and telephone numbers. More sophisticated 
reference services may include information about whether you own a home 
or rent an apartment, how long you have lived in the same location, and 
if there are additional household members. Sensitive identifying 
information such as your Social Security number, drivers license 
number, and date of birth is included in some reference services. These 
services, however, are limited to use by law enforcement, government 
agencies, and other organizations with a legitimate and appropriate 
need for such information.
Trilegiant Corporation
    Trilegiant Corporation is one of the country's largest direct mail 
marketers. Trilegiant offers consumers the opportunity to join various 
membership clubs that provide valuable services, significant discounts 
and other member privileges. Trilegiant's membership clubs provide a 
wide array of financial and consumer-based individual services, 
including those relating to shopping, travel, auto, personal finance 
and other membership programs that make their lives more convenient and 
secure. We were a pioneer in the direct marketing and membership 
services business and have been active for over 27 years, and we 
currently have over 23 million members in the U.S. who enjoy our 
services. Trilegiant partners with many of the nation's leading 
financial, retail and media entities to enable them to enhance their 
customer loyalty and brand affinity and to generate additional revenue.
    Each year, Trilegiant mails hundreds of millions of pieces of 
consumer correspondence, receives tens of millions of inbound 
telemarketing calls, and conducts millions of outbound telemarketing 
calls. Trilegiant also is a major on-line marketer and partners with 
many of the country's largest on-line businesses and markets its 
services through hundreds of millions of on-line impressions.
    Trilegiant has over 3,000 employees in facilities across the 
nation.

    Mr. Stearns. By unanimous consent, so ordered. And I thank 
you.
    Mr. Misener.

                    STATEMENT OF PAUL MISENER

    Mr. Misener. Mr. Chairman and Mr. Boucher, Mr. Bass, thank 
you very much for inviting me to testify today.
    Amazon.com is the Internet's leading retailer. As I 
described in detail in my testimony before this subcommittee 
last year, Amazon.com uses consumer information to personalize 
the shopping experience at our on-line store and thus help our 
customers find and discover anything they may want to buy.
    At the same time, Amazon.com is pro-privacy. We make ever 
effort to provide our consumers outstanding privacy notice, 
choice access and security.
    Mr. Chairman, through your steadfast leadership and the 
dedicated efforts of the members and extraordinarily talented 
staff of your subcommittee and the full committee, you have 
amassed what likely is the world's most comprehensive 
legislative data base on consumer information privacy. You have 
held now seven highly informative hearings and countless 
meetings with company association representatives, public 
interest advocates and academics. Your willingness to listen 
impartially to all parties is well known and greatly 
appreciated. It is not surprising therefore that you have 
introduced, with bipartisan support, such an excellent bill, 
H.R. 4678.
    The essential purpose of your bill, if I may summarize it, 
is to provide consumers a baseline of information privacy 
protection regardless of the specific type of information 
involved, regardless of the medium through which it is 
collected and regardless of where a consumer is located in the 
United States. This approach works very well with the existing 
U.S. Privacy law, which provides additional protections for 
particularly sensitive information, such as medical and 
financial records and particularly hazardous situations such as 
unsupervised children online.
    As I will describe in detail momentarily, H.R. 4678 
includes the three indispensable components about which I 
testified in your subcommittee last year. H.R. 4678 goes even 
further by addressing, head on, the issue consumers often cite 
as their principal, quote, ``privacy concern,'' which is 
identity theft. All in all, Mr. Chairman, H.R. 4678 is an 
excellent bill.
    I must explain, however, that Amazon.com is not actually 
seeking privacy legislation. For several reasons, we believe it 
would not be proper for us to do so. First, if we were to argue 
that a bill must be passed, we might incorrectly be viewed as 
suggesting that a bill is necessary in order to make our 
company protect consumer privacy. But Amazon.com already 
provides excellent privacy protections to our customers.
    Second, Amazon.com's arguing that a bill must be passed 
could be misinterpreted to mean that we want Congress to force 
other companies to offer privacy protections at the level we 
already do. Frankly, however, we think our companies neglect 
consumer information privacy at their peril. The companies 
simply must offer excellent privacy practices or else they will 
lose business.
    Third, if we actively seek passage of a Federal bill, it 
might be said we merely wish to preempt State legislation in 
this area. Although it is true that State-by-State legislation 
of consumer information privacy easily could produce an 
untenable and unconstitutional crazy quilt of rules with which 
an on-line company might find it difficult or impossible to 
comply. States, thus far, have heeded our warnings in this 
regard.
    Finally, by arguing that a bill must be passed, Amazon.com 
might mislead some observers into thinking that we believe the 
bill is necessary to improve consumer confidence on the 
Internet. Although we are aware of intuitive and compelling 
arguments that legislation is necessary to boost consumer 
confidence, we are not nearly so sure this is true, just as in 
the off-line retail world, consumers know there are both safe 
and unsafe places to shop.
    In sum, Mr. Chairman, we did not come before you today 
requesting privacy legislation. Others have made a strong case 
for a new law. But for the reasons I have just articulated, 
Amazon.com is not prepared to make the same case. Nonetheless, 
Mr. Chairman, if you and your colleagues determine that general 
consumer information privacy legislation is needed, Amazon.com 
fully supports H.R. 4678 to meet this need.
    In my remaining time, I would like to offer our support in 
particular for three essential aspects of H.R. 4678. Without 
any one of these components, Amazon.com, and I suspect many 
other companies, could not support this bill. First and 
foremost, H.R. 4678 addresses consumer information privacy 
holistically without regard to the medium through which the 
information is collected. This parity among media is both wise 
and fair.
    It is wise because there is no reason for legislation to 
treat, for example, the privacy of the person's mailing address 
different if it were collected at an on-line Web site instead 
of at a mall kiosk or over the phone.
    Parity is fair to on-line business because the information 
privacy practices of competitors that happen to operate through 
different communications media would be treated the same. And 
most importantly, parity is fair to consumers because it would 
address 100 percent of their retail transactions, rather than 
the mere 1 or 2 percent conducted online.
    Amazon.com also supports H.R. 4678's national approach to 
consumer information privacy. The inherent interstate nature of 
Web-based commerce demands a national solution. Your bill 
recognizes this fact by preempting relevant State law.
    Finally, Amazon.com supports the bill's faith in the 
consistency and balance of a public enforcement mechanism. 
Consumers need a readable, not legalistic, privacy notice. Only 
a regulatory body such as the Federal Trade Commission is well 
positioned to balance the competing goals of legal precision 
and readability.
    Let me summarize by saying that although we are not 
explicitly seeking privacy legislation, Amazon.com is, on 
behalf of our company and customers, proud to support H.R. 
4678, which wisely and fairly addresses consumer information 
uniformly among all methods of collection, establishes a 
national system that avoids a hodgepodge of State and local 
rules and employs the consistency and balance of a public 
enforcement mechanism.
    Thank you again, Mr. Chairman, for your attention to the 
facts and details of consumer information privacy. On behalf of 
our company and customers, Amazon.com sincerely appreciates 
your perspicacity.
    And last let me thank you for inviting me to testify. And I 
look forward to your questions.
    [The prepared statement of Paul Misener follows:]
   Prepared Statement of Paul Misener, Vice President, Global Public 
                           Policy, Amazon.com
    Chairman Stearns, Mr. Towns, and members of the subcommittee, my 
name is Paul Misener. I am Amazon.com's Vice President for Global 
Public Policy. Thank you very much for inviting me to testify today.
    Amazon.com is the Internet's leading retailer. As I described in 
detail in my testimony before this subcommittee last year, Amazon.com 
uses consumer information to personalize the shopping experience at our 
online store and, thus, to help our customers find and discover 
anything they may want to buy. At the same time, Amazon.com is pro-
privacy: we make every effort to provide our customers outstanding 
privacy notice, choice, access, and security.
    Mr. Chairman, through your steadfast leadership, and the dedicated 
efforts of the members and extraordinarily talented staff of your 
subcommittee and the full committee, you have amassed what likely is 
the world's most comprehensive legislative record on consumer 
information privacy. You have held seven highly informative hearings 
and countless meetings with company and association representatives, 
public interest advocates, and academics. Your willingness to listen 
impartially to all parties is well known and greatly appreciated.
    It is not surprising, therefore, that you have introduced, with 
bipartisan support, such an excellent bill, H.R. 4678. The essential 
purpose of your bill, if I may summarize it, is to provide consumers a 
baseline of information privacy protection, regardless of the specific 
type of information involved; regardless of the medium through which it 
is collected; and regardless of where a consumer is located in the 
United States. This approach works very well with existing U.S. privacy 
law, which provides additional protections for particularly sensitive 
information (such as medical and financial records) and particularly 
hazardous situations (such as unsupervised children online).
    As I will describe in detail momentarily, H.R. 4678 includes the 
three indispensable components about which I testified to your 
subcommittee last year. Specifically, your bill would address consumer 
information uniformly among all methods of collection; it would 
establish a national system that avoids a hodgepodge of state rules; 
and it would employ the consistency and balance of a public enforcement 
mechanism. H.R. 4678 goes even further by addressing head-on the issue 
consumers often cite as their principal ``privacy'' concern: identity 
theft. It also wisely would begin the process of examining how best to 
harmonize privacy protections worldwide. All in all, Mr. Chairman, H.R. 
4678 is an excellent bill.
    I must explain, however, that Amazon.com is not actually seeking 
privacy legislation. For several reasons, we believe it would not be 
proper for us to do so. First, if we were to argue that a bill must be 
passed, we might incorrectly be viewed as suggesting that a bill is 
necessary in order to make our company protect consumer privacy. But as 
I briefly outlined earlier, and described in detail in my testimony 
last year, Amazon.com already provides excellent privacy protections to 
our customers. In fact, H.R. 4678 likely would not require Amazon.com 
to alter its privacy practices in any substantial way: we simply do not 
need a new law to force us to provide outstanding consumer privacy 
protections.
    Second, Amazon.com arguing that a bill must be passed could be 
misinterpreted to mean that we want Congress to force other companies 
to offer privacy protections at the level that we already do. After 
all, it is a centuries-old tradition for market-leading companies to 
seek regulations that mirror their current practices, if for no other 
reasons than to impose additional costs on existing competitors and 
market entry costs on potential competitors. Frankly, however, we think 
other companies neglect consumer information privacy at their peril: 
Companies simply must offer excellent privacy practices or else they 
will lose business, regardless of whether a law requires it.
    Third, if we actively seek passage of a federal bill, it might be 
said that we merely wish to preempt state legislation in this area. 
Although it is true that state-by-state legislation of consumer 
information privacy easily could produce an untenable and 
unconstitutional ``crazy-quilt'' of rules with which online companies 
might find it difficult or impossible to comply, states thus far have 
heeded our warnings in this regard. A national privacy scheme, based on 
explicit preemption of state laws, is an essential component of any 
federal legislation but, obviously, until state laws are passed, no 
such preemption is necessary.
    Finally, by arguing that a bill must be passed, Amazon.com might 
mislead some observers into thinking that we believe a bill is 
necessary to improve consumer confidence on the Internet. Although we 
are aware of intuitive and compelling arguments that legislation is 
necessary to boost consumer confidence, we are not nearly so sure this 
is true. Just as in the offline retail world, consumers know there are 
both safe and unsafe places to shop.
    In sum, Mr. Chairman, we do not come before you today requesting 
privacy legislation. Others have made a strong case for a new law but, 
for the reasons I have just articulated, Amazon.com is not prepared to 
make the same case.
    Nonetheless, Mr. Chairman, if you and your colleagues determine 
that general consumer information privacy legislation is needed, 
Amazon.com fully supports H.R. 4678 to meet this need. This bill is an 
excellent vehicle by which Congress could address the consumer 
information privacy concerns various parties have raised, and 
Amazon.com could continue to serve our customers well if it were 
enacted.
    In my remaining time, I would like to offer Amazon.com's support 
for three particular and essential aspects of H.R. 4678. Without any 
one of these components, Amazon.com--and, I suspect, many other 
companies--could not support this bill.
    First and foremost, H.R. 4678 addresses consumer information 
privacy holistically, without regard to the medium through which the 
information is collected. This parity among media is both wise and 
fair. It is wise because the personal consumer information collected 
offline (to the extent the terms ``offline'' and ``online'' have any 
meaning in today's world of communications convergence) is as sensitive 
as or, often, is more sensitive than, information collected online. 
There is no reason for legislation to treat, for example, the privacy 
of a person's mailing address differently if it were collected at an 
online website instead of at a mall kiosk or over the phone.
    This parity also is wise because online transactions often provide 
more consumer privacy protections than offline transactions. Indeed, 
brick-and-mortar retailers know their customers' physical 
characteristics, including race, sex, weight, complexion, et cetera, 
but online retailers cannot. And unlike their online competitors, 
brick-and-mortar retailers also know their customers' geographic 
location; we online retailers, on the other hand, do not know from 
where our customers access our Website.
    Parity also is fair to online businesses, because the information 
privacy practices of competitors that happen to operate through 
different communications media would be treated the same. And, most 
importantly, parity is fair to consumers, because it would address 100% 
of their retail transactions rather than the mere one or two percent 
conducted online. Significantly, parity also would address the privacy 
concerns of those persons on the unfortunate side of the digital 
divide, not just those people who shop online. This bears repeating: an 
online-only bill would have the perverse effect of providing no privacy 
protections to those on the unfortunate side of the digital divide.
    In sum, H.R. 4678 wisely and fairly addresses consumer information 
privacy without regard to the medium through which it is collected.
    Amazon.com also supports H.R. 4678's national approach to consumer 
information privacy. It would be difficult or impossible for nationwide 
entities such as our company to comply with a ``crazy-quilt'' of state 
consumer privacy legislation. The inherent interstate nature of Web-
based commerce--a single Web page is viewable from anywhere in the 
world--demands a national solution; your bill recognizes this fact by 
preempting relevant state law.
    Finally, Amazon.com supports the bill's faith in the consistency 
and balance of a public enforcement mechanism. Consumers need readable, 
not legalistic, privacy notices. Only a regulatory body such as the 
Federal Trade Commission is well positioned to balance the competing 
goals of legal precision and readability. Indeed, despite the bill's 
emphasis on the readability of privacy notices, private litigants would 
have no interest in protecting readability. If private enforcement were 
authorized, companies like Amazon.com might be forced to adopt 
Balkanized, legalistic privacy notices at the expense of consumer 
accessibility. Only a public enforcement mechanism, such as that 
included in H.R. 4678, would foster a tenable balance between the 
competing goals of accuracy and readability.
    Let me summarize by saying that although we are not explicitly 
seeking privacy legislation, Amazon.com is, on behalf of our company 
and customers, proud to support H.R. 4678, which wisely and fairly 
addresses consumer information uniformly among all methods of 
collection; establishes a national system that avoids a hodgepodge of 
state and local rules; and employs the consistency and balance of a 
public enforcement mechanism. As I mentioned earlier, it also sensibly 
addresses consumer identity theft and the international aspects of 
privacy policy.
    Thank you again, Mr. Chairman, for your attention to the facts and 
details of consumer information privacy. On behalf of our company and 
customers, Amazon.com sincerely appreciates your perspicacity.
    Lastly, thank you for inviting me to testify; I look forward to 
your questions.

    Mr. Stearns. Nice to see you again.
    Mr. Rotenberg, you have the platform. You are probably one 
that can enlighten us a little differently.

                   STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. I have somewhat different views, Mr. 
Chairman, yes. And I would like to thank you and Mr. Boucher 
not only for the opportunity to be here this morning, but also 
to recognize the extensive work that has been done by this 
subcommittee and the members and the staff to tackle this very 
difficult issue.
    And I don't think anyone on the panel would disagree that 
this is a difficult issue. At the same time, it is an important 
issue, and I would certainly like to be able to join the other 
witnesses this morning and say that we have a good bill and we 
are ready to go forward. But that is not my view, and I don't 
believe that is the view of other consumer privacy 
organizations on the left or the right that have considered 
this issue.
    This is not just a concern, also, of the Washington policy 
groups. I think the reason that these witnesses are here today 
asking for this legislation is because over the last several 
years, all across this country, Americans have said to their 
elected officials, we need protections for privacy; we are 
concerned about how companies are using our personal 
information; we want to be able to do business, but we also 
believe there should be some accountability.
    And they have turned to the courts and the State 
legislatures and the attorneys general, and even the counties, 
to get some protection from privacy; and they are getting it 
because the American legal system allows the States to protect 
the interests of their citizens through law, through court 
decisions, through the efforts of the attorneys general.
    I think it is extraordinary that in North Dakota there was 
actually a referendum on the question of opt-in and financial 
privacy, and a referendum in that State passed because people 
in that State feel very strongly about protecting the privacy 
of their financial information. I think 10 years ago if you had 
said ``opt-in'' to anybody in North Dakota or anywhere else in 
this country, they would have no idea you were talking about 
privacy. That is how strongly people feel about this issue.
    Now the industry groups have come to Washington and they 
have said to you, in effect, we can't take this avalanche of 
privacy concerns. We can't face potential action in 50 
different States. Of course, they never stopped to think that 
consumers in the self-regulatory environment face not 50 
different privacy policies, but perhaps 500 or 5,000, because 
under the self-regulatory approaches that the bill endorses, 
companies are free to create whatever policy they wish. And 
every customer dealing with any company would have to consider 
each single interaction, what that policy means and whether it 
protects their privacy.
    So let's look closely at the provisions in the bill and ask 
the question, Is what people across the country are being asked 
to trade, which are the rights and State laws and the 
aggressive action of State officials, a fair deal?
    The act provides no access to the personal information that 
is acquired by companies on customers, and being acquired by 
companies on behalf of other companies. Acxiom, for example, is 
an extraordinary firm. I don't mean to single them out, but 
they are here this morning. They provide what they call a 360-
degree view of customers. They want to know everything about 
you. And they will make that information available not only to 
businesses like Citibank for e-mail solicitation, which the 
Wall Street Journal--the Wall Street Journal recently raised 
questions about; they also now make it freely available for the 
FBI to do intensive data mining on American citizens. 
Commercial information is now being provided by Acxiom 
routinely for criminal investigations.
    And I would like you to at least consider on this access 
question--perhaps you or members of your staff would make a 
request to Acxiom and ask them to provide you the information 
that they have about you and your family members, that they are 
providing to law enforcement and other businesses.
    There is nothing in the bill that prevents that current 
practice. There is no private right of action, of course, in 
the bill, which many of the witnesses here this morning are 
very pleased about. Because, of course, that means that there 
is no real accountability.
    Every single privacy complaint under this bill must go 
toward the Federal Trade Commission which even--even if it were 
more extensively staffed and really, you know, up to taking on 
individual consumer privacy complaints, couldn't begin to 
address the range of concerns and issues that Americans have 
expressed about the privacy issue.
    And the bill provides no remedies to consumers. In other 
words, once consumers have gone through all the steps of the 
self-regulatory program--of the appeal within the self-
regulatory program of the complaint to the FTC, at best, the 
FTC might decide that the company is no longer eligible to be a 
member of the self-regulatory program. And in my opinion that 
is an inadequate remedy.
    I think we need real privacy protection. I think American 
consumers are asking for real privacy protection, and I think 
over the long term it will benefit American businesses and 
allow commerce both online and offline to thrive. But 
regrettably, I don't think this is a bill that would do it; and 
I am sorry to say that because I know we have spent a lot of 
time on this one, and we would certainly like to see a bill 
that would provide that protection.
    So thank you very much.
    [The prepared statement of Marc Rotenberg follows:]
 Prepared Statement of Marc Rotenberg, Executive Director, Electronic 
                       Privacy Information Center
    My name is Marc Rotenberg. I am the Executive Director of the 
Electronic Privacy Information Center in Washington. I am on the 
faculty of Georgetown University Law Center, where I have taught 
Information Privacy Law since 1990. I am co-author of a forthcoming 
casebook with Professor Daniel J. Solove on Information Privacy Law 
(Aspen Publishing). I have also recently been named chairman of the 
American Bar Association Committee on Privacy and Information 
Protection, though my comments today reflect only my views and not 
those of the ABA.
    I appreciate the opportunity to testify before the Subcommittee 
today on HR 4678, the ``Consumer Privacy Protection Act of 2002.'' I am 
well aware of the extensive work of the Subcommittee on privacy issues 
during this Congress. Therefore it is with some misgivings that I say 
to you today that this bill will have little support among consumer or 
privacy organizations, privacy experts, or the general 
public.<SUP>1</SUP> In many respects it seems crafted to protect 
privacy violators from legal accountability. On almost every key 
provision it favors industry over the consumer, the invasion of privacy 
over the protection of privacy. While it is true that is a sweeping 
measure in the sense that it applies to all data collection 
organizations, both off-line and on-line, the intent appears to be to 
insulate companies from any real accountability for what they might do 
with the personal information they acquire. Given the important 
tradition in the United States of safeguarding privacy as new 
technologies emerge, as well as the testimony provided by several 
witnesses on the need to protect privacy going forward, I can only hope 
that a better bill will be introduced in the future.
---------------------------------------------------------------------------
    \1\ The bill appears to ignore the testimony of every public 
interest advocate appearing before the Subcommittee. My own testimony 
of June 21, 2001 advocated a system of rights similar to the Cable 
Communications Policy Act of 1984, one that includes notice, opt-in, 
access, and a private right of action. Ed Mierzwinski's testimony of 
April 3, 2002, on behalf of the US Public Interest Research Group, 
called for a law that incorporated a system of FIPs. Specifically, Mr. 
Mierzwinski testimony called for collection limitations, comprehensive 
notice, opt-in, guarantees of accuracy and security, no preemption, and 
a private right of action. Frank Torres' testimony of April 3, 2001, on 
behalf of Consumers Union, broadly outlined current problems in HIPAA 
and the GLBA. Mr. Torres recommended comprehensive notice, full access 
and correction rights, and opt-in consent. More than thirty 
organizations across the political spectrum endorsed a set of principle 
at the beginning of this Congress on which to base federal privacy 
legislation:
    1. The Fair Information Practices: the right to notice, consent, 
security, access, correction, use limitations, and redress when 
information is improperly used,
    2. Independent enforcement and oversight,
    3. Promotion of genuine Privacy Enhancing Technologies that limit 
the collection of personal information,
    4. Legal restrictions on surveillance technologies such as those 
used for locational tracking, video surveillance, electronic profiling, 
and workplace monitoring, and
    5. A solid foundation of federal privacy safeguards that permit the 
private sector and states to implement supplementary protections as 
needed.
    Many good proposals from leading US academics were apparently also 
ignored. Professor Joel Reidenberg, testifying on March 8, 2001, said 
that the ``United States is rapidly on the path to becoming the world's 
leading privacy rogue nation.'' Reidenberg recommended that the 
Congress promote the negotiation of a ``General Agreement on 
Information Privacy.'' As for public opinion, polls consistently find 
strong support among Americans for privacy rights in law to protect 
their personal information from government and commercial entities. See 
EPIC, ``Public Opinion and Privacy'' (http://www.epic.org/privacy/
survey/default.html)
---------------------------------------------------------------------------
``Protection of Individual Privacy in Interstate Commerce'' (Title I)
    The substantive provisions of the measure are set out in Title I. 
Simply stated they require a company to adopt a privacy policy that can 
say virtually anything and can be changed at any point in time to say 
anything else. Under Title I of the Act, if a company states that it 
takes sensitive personal information and puts in on the Internet for 
all to see, it will be in compliance with the Consumer Privacy 
Protection Act. A company can adopt a policy that states that it will 
zealously protect sensitive personal information, acquire customer 
data, then change its mind, and post it on the Internet. It too will be 
in compliance with the Consumer Privacy Protection Act.
    There is an interesting section that attempts to limit the sale of 
personal data to third parties, but this provision is easy to defeat by 
simply offering the consumer a benefit, such as the service originally 
sought. A companion provision that seeks to limit ``other information 
practices'' is also almost meaningless because consumers will not have 
access to any relevant information to make an informed decision and 
even if they go to the effort of exercising this right, the company can 
exercise its right to ``terminate its compliance with the limitation'' 
on thirty days notice. (This section might be called the ``Now you see 
it, now you don't'' privacy provision.)
    The Act would create policies for policies--a form of bureaucratic 
red tape for consumers--without ever giving a consumer access to 
personal information held by the company. Does a company have 
inaccurate information about you? You'll never know. Does it 
discriminate against you because of confusion about names, incorrect 
addresses, or bad information provided by a third party? You'll have no 
idea. There is nothing in the bill that even attempts to hold companies 
responsible for the accuracy of their information on consumers.
    The bill places enormous confidence in self-regulatory programs. It 
imposes only the most modest obligations on these consulting firms. The 
generous eight-year certification period for self-regulatory companies 
contrasts sharply with the thirty days notice provided to consumers 
about material changes in privacy polices permitted under the Act. This 
deference to self-regulation is extraordinary, considering not only 
that Truste continued to approve Microsoft even as its Passport service 
was found to violate the FTC Act, as well as the clear experience in 
this last few years of abuse stemming from industry self-policing.
    The Act noticeably creates no safeguards on disclosure of 
personally identifiable information to law enforcement agencies. In 
other words, individuals who provide information to businesses will 
have no protections against fishing expeditions by the police. 
Virtually every other privacy law in the United States sets out a 
Fourth Amendment standard to regulate police access to personal 
information held by third parties. The purpose is not to prevent law 
enforcement access or to frustrate criminal investigations, but rather 
to ensure that when police go to a private business in search of 
information about customers or clients they do so with something that 
approaches probable cause or reasonable suspicion that a crime has been 
committed. Under the ``Consumer Privacy Protection Act'' there will be 
no new safeguards established to protect consumers from searches that 
might otherwise be overly board, intrusive or unlawful. Under this 
approach, video rental records will remain protected under a 1988 Act, 
but there will be no similar protection for new services offered over 
the Internet or the extensive record of purchases and interests 
collected and maintained by Amazon.
    The Act forcefully creates no private right of action. This goes 
far beyond any reasonable concern about large damage awards. There are 
any number of alternative approaches that would preserve a private 
right of action. It is possible for example, to allow individuals go 
into small claims court and seek relief as they do currently and 
effectively under the Telephone Consumer Protection Act. Alternatively, 
the state attorneys general could be empowered to enforce rights 
created by the federal statute as others have proposed, or damage 
awards could be capped. The point is that there are many ways to make a 
private right of action work.
    The absence of a private right of action is all the more 
problematic because as the bill is currently structured there are no 
procedural rights for consumers who file complaints at the FTC nor are 
there any formal means of reporting or appeal if the FTC fails to act 
on a complaint. What happens, for example, if a drug company discloses 
the names of Prozac users on the Internet, a complaint is filed, and 
the FTC chooses not to act? It is clear that that the company's action 
violates the FTC Act as the FTC has already found, but if the 
Commission chooses, for whatever reason, not to pursue the complaint, 
that is the end of the matter. This grants the agency unprecedented 
discretionary authority.
    Having constructed a bill that effectively provides no substantive 
rights for consumers, the Act preempts states that are seeking to 
provide greater protection to their citizens. It even preempts state 
common law which is an extraordinary step for the Congress. Has this 
Committee concluded that there should be no state remedies anywhere in 
the United States for breaches of privacy committed by an organization 
that collects personal information? That would be an extraordinary 
assault on both the common law and our federal form of government.
International Provisions
    The purpose of Title III is apparently to raise questions about the 
enforcement of the Safe Harbor Arrangement and other international 
agreements that the United States has pursued to support the protection 
of privacy. As currently drafted, the section asks the Comptroller 
General to review these various arrangements to determine whether such 
laws, regulations or agreements ``result in discriminatory treatment of 
United States entities.''
    Members of the Subcommittee should realize that the Safe Harbor 
Arrangement addresses concerns that European governments have raised 
about privacy protection for their own citizens. Safe Harbor came about 
to assist US businesses who had complained that it would be difficult 
to comply with privacy law in Europe. The concerns of European 
officials about US practices have been substantiated in the United 
States by both state attorneys general and the Federal Trade 
Commission. For example, European privacy officials raised concerns 
that the Microsoft Passport service violated European law, but it was 
ultimately the US Federal Trade Commission that found that Microsoft 
violated Section 5 of the FTC Act. Earlier, European officials asked 
the Doubleclick company to modify its Internet advertising practices to 
comply with European privacy laws, but it was US officials who 
ultimately clamped down on the company's plans for invasive profiling 
of Internet users.
    Do we really want to be in the position of objecting to the efforts 
of foreign governments to safeguard the privacy rights of their own 
citizens when US officials have expressed similar concerns? This is not 
a wise or forward-looking policy.
    I'd also like to bring to the attention of the Committee the 
important role that the United States has historically played in 
helping to enforce international standards for privacy protection. The 
Department of State, under both political parties, has supported the 
international human rights community by monitoring compliance with the 
International Covenant of Civil and Political Rights. The ICCPR 
includes a critical provision on unlawful surveillance and police 
practices that threaten political freedom all around the world.
    As the web site of the Department of State currently notes:
        The protection of fundamental human rights was a foundation 
        stone in the establishment of the United States over 200 years 
        ago. Since then, a central goal of U.S. foreign policy has been 
        the promotion of respect for human rights, as embodied in the 
        Universal Declaration of Human Rights. The United States 
        understands that the existence of human rights helps secure the 
        peace, deter aggression, promote the rule of law, combat crime 
        and corruption, strengthen democracies, and prevent 
        humanitarian crises.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Department of State, ``Human Rights,'' http://www.state.gov/g/
drl/hr/ (last visited September 21, 2002)
---------------------------------------------------------------------------
    Section 1, paragraph f in the annual report prepared by the State 
Department addresses specifically ``Arbitrary Interference With 
Privacy, Family, Home, Correspondence.'' For example in the 2002 report 
on China, the State Department notes that:
        The Constitution states that the ``freedom and privacy of 
        correspondence of citizens are protected by law.'' Despite 
        legal protections, authorities often do not respect the privacy 
        of citizens in practice. Although the law requires warrants 
        before law enforcement officials can search premises, this 
        provision frequently has been ignored; moreover, the Public 
        Security Bureau and the Procuratorate can issue search warrants 
        on their own authority. Authorities monitor telephone 
        conversations, facsimile transmissions, e-mail, and Internet 
        communications. Authorities also open and censor domestic and 
        international mail. The security services routinely monitor and 
        enter the residences and offices of persons dealing with 
        foreigners to gain access to computers, telephones, and fax 
        machines. Government security organs monitor and sometimes 
        restrict contact between foreigners and citizens. All major 
        hotels have a sizable internal security presence.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Department of State, ``China (includes Hong Kong and Macau),'' 
http://www.state.gov/g/drl/rls/hrrpt/2001/eap/8289.htm
---------------------------------------------------------------------------
    Now I agree that the United States should look more carefully at 
some of the current international agreements that impact privacy, but 
the commercial agreements such as Safe Harbor, which are intended to 
safeguard privacy and facilitate trade, are the wrong place to start. I 
would urge the Comptroller General to consider whether such proposals 
as the Council of Europe Cybercrime Convention would violate the 
privacy rights of American citizens that would otherwise be protected 
under US law and the US Constitution.<SUP>4</SUP> That proposal, which 
some in the Administration continue to promote as if it were national 
law, even though it has never been introduced in the Congress let alone 
ratified by the United States, contains many provisions that deeply 
implicate American Constitutional values.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Council of Europe Committee of Ministers, 109th Sess, 
Convention on Cyber-Crime (adopted Nov 8, 2001), available online at 
http://conventions.coe.int/Treaty/EN/WhatYouWant.asp?
NT=185.
    \5\ See, e.g., id. Arts. 2-11 (requiring member country statutory 
criminalization of offenses such as hacking, the production, sale or 
distribution of hacking tools, and child pornography, and an expansion 
of criminal liability for intellectual property violations. The 
treaty's intellectual property provisions significantly expand criminal 
liability for intellectual property violations and tilt copyright law 
away from the public interest: U.S. intellectual property law contains 
a delicate balance between the rights of intellectual property holders 
and the rights of the public through the First Amendment and the law of 
``fair use'' of copyrighted materials, but the Cyber crime Convention 
criminalizes copyright infringement with no mention of fair use); id. 
Arts 16-22 (requiring participating nations to grant new powers of 
search and seizure to its law enforcement authorities, including the 
power to force an ISP to preserve a citizen's internet usage records or 
other data, and the power to monitor a citizen's online activities in 
real time--while including no provisions to protect citizens' privacy. 
In the United States, the treaty requires the U.S. to authorize the use 
of devices like Carnivore, the FBI's ``Internet-tapping'' surveillance 
system.); id. Arts 23-35 (requiring law enforcement in every 
participating country to assist police from other participating 
countries by cooperating with ``mutual assistance requests'' from 
police in other participating nations ``to the widest extent 
possible.'' This obliges American law enforcement to cooperate with 
investigations of behavior that is illegal abroad but perfectly legal 
in the U.S.). The Administration has stated that ``The Convention will 
help us and other countries fight criminals and terrorists who use 
computers to commit crimes . . .'' Promoting Innovation and 
Competitiveness: President Bush's Technology Agenda, at http://
www.whitehouse.gov/infocus/technology/tech3.html.
---------------------------------------------------------------------------
    It is the Cybercrime Convention, not the Safe Harbor arrangement, 
that poses a direct threat to the interests of the United States and 
American citizens. It is that proposal that should be given careful 
scrutiny by the Congress.
Conclusion
    This has been a difficult year on the privacy front. The country 
faces new challenges after September 11. Even so, many of us have been 
heartened by the efforts of government officials to safeguard this 
essential American value. A secretive federal court has spoken out 
against the misuse of the Foreign Intelligence Surveillance Act. The 
House leadership has taken strong stands on such issues as Carnivore, 
TIPS, and video surveillance. The White House has indicated its 
reluctance to endorse a national identity card. The Federal Trade 
Commission has issued important orders on Microsoft, Eli Lilly, and 
proposed a new rule on telemarketing. The state attorneys general have 
acted to protect consumers against egregious practices that have led to 
the disclosure of medical records, financial information, and the 
misuse of student records.
    Even the President's Critical Infrastructure Protection Board, 
charged with safeguarding the nation against future terrorist threats 
said in the recent report on the National Strategy to Secure 
Cyberspace:
        The nation's Strategy must be consistent with the core values 
        of its open and democratic society. Accordingly, Americans must 
        expect government and industry to respect their privacy and 
        protect it from abuse. This respect for privacy is a source of 
        our strength as a nation; accordingly, one of the most 
        important reasons for ensuring the integrity, reliability, 
        availability, and confidentiality of data in cyberspace is to 
        protect the privacy and civil liberties of Americans when they 
        use--or when they personal information resides on--cyber 
        networks. To achieve this goal, the National Strategy 
        incorporates privacy principles--not just in one section of the 
        Strategy, but in all facets. The overriding aim is to reach 
        toward solutions that both enhance security and protect privacy 
        and civil liberties.<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\  p. 43 (emphasis added).
---------------------------------------------------------------------------
    This was an extraordinary statement coming from an organization 
tasked with protecting the country from cyber warfare and future acts 
of terrorism. Still, they seemed to leave little doubt that the 
protection of privacy could not be sacrificed even as the country works 
to strengthen cybersecurity. Certainly, there could be a similar 
commitment to protect privacy in less critical circumstances.
    Thank you for your attention. I would be pleased to answer your 
questions.

    Mr. Stearns. Thank you Mr. Rotenberg. I mean we have, we 
are interested in people that don't agree with the bill 
obviously too. And so we appreciate your comments.
    I would ask unanimous consent to put in the record the 
support we have got, a letter from Acxiom and Computer Systems 
Policy Project and National Business Coalition on E-Commerce 
Privacy. Without objection, so ordered and we will make it part 
of the record.
    [The information referred to follows:]

                                             ACXIOM
                                            Little Rock, AR
                                                     August 1, 2002
The Honorable Cliff Stearns
United States House of Representatives
2227 Rayburn House Office Building
Washington, DC 20515
    I just want to take this opportunity to thank you for the hard work 
that you and your staff have put into coming up with a balanced 
approach to a key aspect of the privacy issue. Your work helps to 
ensure consumer privacy, while protecting the economy, by allowing the 
exchange if critical data while not compromising personal information. 
I believe that your legislation, H. R. 4678, weighs competing concerns, 
in an extremely difficult environment, and gives privacy advocates, the 
business community and regulators the capacity to work through many of 
the problems raised without undue burdens on the consumer.
    While we might recommend some adjustments, it does provide a 
workable framework that is fair and will not result in the curtailment 
of critical data flows that are essential to our nation's economy. 
Without a doubt, a competing version currently moving in the Senate 
will have broad, unintended ramifications that will ultimately hurt 
both consumers and businesses.
    Therefore, I want to express my support for H. R. 4678 and again 
thank you and your staff, particularly Ramsen Betfarhad, for the 
tireless effort given in crafting this balanced and effective piece of 
legislation.
            Sincerely,
                                             Charles Morgan
                                                     Company Leader
                                 ______
                                 
            High-Tech Leaders Praise Stearns' Privacy Bill;
          cspp says legislation ``strikes the right balance''
    Washington--The Computer Systems Policy Project (CSPP), a coalition 
of CEOs from the nation's leading high-tech companies, offered its 
support for bipartisan information privacy legislation unveiled today 
by House Energy and Commerce, Trade and Consumer Protection 
Subcommittee Chairman Cliff Stearns (R-Fla.).
    ``The issue of privacy is of paramount importance to CSPP 
members,'' said Phil Servidea, vice president of government affairs for 
NCR and co-chair of the CSPP Networked World Committee. ``The bill 
proposed by Chairman Stearns is a step in the right direction, offering 
a baseline of protection to Americans doing business both online and 
offline, as well as effectively balancing consumer and business 
interests, and state versus federal jurisdiction.''
    ``CSPP is grateful to Chairman Stearns for his thoughtful 
consideration of this complicated issue,'' said Ken Kay, executive 
director of CSPP. ``We look forward to continuing to work with Chairman 
Stearns and Congress on privacy legislation that protects consumer 
privacy in accordance to the principles supported by our member 
companies.''
    The goals of the Stearns' legislation, the Consumer Privacy Act of 
2002, are in-line with many of the principles for privacy legislation 
articulated by CSPP last year. The legislation applies to both online 
and offline transactions, builds on industry's existing self-regulatory 
programs, establishes a national legal framework assuring protection, 
and enables consumers to control how their information is used. It 
calls for Federal Trade Commission (FTC) enforcement and penalization 
for privacy violations, as opposed to creating new opportunities for 
litigation. The legislation would double existing FTC fines for such 
transgressions. Finally, the Stearns bill calls for organizations to 
implement security policies to prevent the unintended compromise of 
personally identifiable information.
    CSPP believes that consumers will be well served by a privacy 
protection regime that includes such industry best practices, vigorous 
FTC enforcement and baseline federal legislative protection. The CSPP 
companies have labored for several years at defining privacy risks and 
identifying legislative requirements.
    Founded in 1989, CSPP's current members are: Michael S. Dell, 
chairman and chief executive officer of Dell and chairman of CSPP; 
Craig Barrett, CEO of Intel Corporation; Carleton S. Fiorina, chairman, 
president and chief executive officer of Hewlett-Packard Company; 
Christopher B. Galvin, chairman and chief executive officer of 
Motorola; Louis V. Gerstner, Jr., chairman of IBM Corporation; Lars 
Nyberg, chairman and chief executive officer of NCR Corporation; Joseph 
Tucci, CEO of EMC; and Lawrence A. Weinbach, chairman and chief 
executive officer of Unisys Corporation.
                                 ______
                                 
      National Business Coalition on E-Commerce and Privacy
                                                      June 18, 2002
Honorable Cliff Stearns
Chairman
Subcommittee on Commerce, Trade and Consumer Protection
U.S. House of Representatives
2227 Rayburn House Office Building
Washington, D.C. 20515
    Dear Mr. Chairman: On behalf of the National Business Coalition on 
E-Commerce and Privacy, we would like to take this opportunity to 
express our views regarding HR 4678, the Consumer Privacy Protection 
Act of 2002.
    The Coalition is comprised of major U.S. corporations from diverse 
economic sectors that strongly support a balanced and uniform national 
policy pertaining to electronic commerce and privacy. Our member 
companies are top competitors in the e-commerce marketplace and 
actively use the Internet to deliver goods and services to our 
customers. We are committed to ensuring the privacy and security of the 
information gathered from our customers, both on-line and off-line.
    Mr. Chairman, we congratulate you on your leadership in 
successfully moving the privacy debate in a more positive and useful 
direction, and we thank you for your impressive effort in holding a 
series of important hearings on the various aspects of the privacy 
issue.
    As you know, the Federal Trade Commission has stated that there is 
no need for the Congress to pass general privacy legislation. While 
Federal legislation is not necessary at this time, this situation would 
change dramatically if the states begin to pass legislation. If Federal 
legislation becomes necessary to preempt a patchwork of conflicting 
privacy laws at the state level, then HR 4678 certainly represents a 
reasonable and measured step forward in the privacy debate for the 
following reasons:

<bullet> By effectively providing a uniform privacy standard across the 
        nation, HR 4678 would avoid the danger of a fragmented e-
        commerce market, with all of the ultimately unworkable 
        administrative requirements that would imply. The preemption of 
        state laws is absolutely critical to the continued growth of e-
        commerce. Having to adapt to as many as fifty different state 
        laws would be enormously burdensome and would be a significant 
        deterrent to the further development of e-commerce.
<bullet> HR 4678 properly emphasizes providing notice of privacy 
        policies to consumers and allowing customers to opt-out of 
        having information about them shared with others. We believe 
        that this represents a reasonable and practical balance between 
        consumer rights to the privacy and security of their data and 
        transactions, and the legitimate uses of information by 
        business to improve the quality, efficiency, and cost 
        effectiveness of products and services that consumers desire. 
        And requiring companies to prepare and implement information 
        security policies will help assure consumers that the 
        information about them is secure.
<bullet> HR 4678 recognizes the importance of treating all business-to-
        consumer information in a similar manner--regardless of whether 
        the information is acquired on-line or off-line. As a general 
        rule, business makes little distinction between information 
        that it gathers on-line as opposed to that gathered off-line. 
        To treat these two types of information differently would 
        result in significant administrative burdens and legal 
        liabilities--the costs of which business would be forced to 
        pass on to the consumer.
<bullet> HR 4678 avoids private rights of action and the potential for 
        frivolous lawsuits. As the FTC has recognized, existing 
        enforcement authority is sufficient to deal with most 
        violations of privacy laws and opening the door to private 
        rights of action would simply create an environment conducive 
        to unnecessary lawsuits. The only qualification we would add is 
        that we would like to see class actions expressly banned.
<bullet> Finally, it is important that HR 4678 addresses the issue of 
        foreign privacy laws, especially since such laws may 
        effectively be barriers to free trade. Harmonization of 
        national privacy laws is essential if the free flow of 
        information that benefits businesses and consumers alike is to 
        be maintained. A thorough study of the consequences of foreign 
        laws like the European Union Privacy Directive, as well as 
        their impact on U.S. competitiveness, is a critical first step 
        to furthering e-commerce in a way that is fair to American 
        business.
    By adhering to the principles outlined above, HR 4678 is, on the 
whole, a fair and balanced approach and the most reasonable alternative 
currently pending in the Congress. As you know, we strongly oppose 
other proposed legislation, S. 2201, that is not consistent with these 
principles, and we are unable to support any bill that goes beyond what 
is now contained in HR 4678. We look forward to working with you to 
further refine and clarify HR 4678 if Federal legislation becomes 
necessary (for instance, in order to preempt incompatible state laws or 
to regulate unscrupulous actors).
    We appreciate your willingness to work with us on this issue, and 
also very much appreciate the time your staff has taken to talk with us 
about this important subject. If you have any further questions, please 
contact John Schall at (202) 756-3385.
            Sincerely,
                                               John Schall,
                                                 Executive Director
                                              Susan Pinder,
                                                              Chair
Coalition Members: American Century Investments; AMVESCAP; CheckFree; 
CIGNA; Deere & Company; Dupont; Fortis, Inc.; General Electric; General 
Motors; The Home Depot; Investment Company Institute; Charles Schwab & 
Company; and Six Continents Hotels.

    Mr. Stearns. In this debate we are going to have a lot of 
people that support it and a lot of people who don't. And I 
think everybody who is on this subcommittee, including the full 
committee chairman, is on the bill except one. So these folks 
have a different approach.
    So there is going to be a lot of debate here and we welcome 
that and we appreciate your comments. We may not necessarily 
agree, but we like to hear your comments.
    As all of you know there is a bill in the Senate, and what 
I would like to do is start from my left to right and say the 
bill that we have, which is H.R. 4678, how does it compare with 
the comprehensive legislative proposals in the 107th Congress. 
What I am trying to do through this hearing is establish a 
baseline so we can say this is what is good about the bill, 
perhaps this is where the controversy is; so then I can go back 
to those folks who don't agree and be prepared to convince them 
to come on board and to show why they should.
    So perhaps you could help me with actually making a 
comparison of my bill with perhaps Senator Hollings, Fritz 
Hollings' bill, and say what you are concerned about. Now, Mr. 
Rotenberg is going to say Mr. Fritz Hollings' bill--he is going 
to praise it. But I would like to, if I could, to put you all 
on the spot and ask that you tell me this morning about my bill 
or that bill or any bill that is in Congress, how it compares 
and why ours is better or not from your standpoint, because 
then what I would do is take the coalition of people that 
support it and say why we think this is better. Is that 
possible for you folks to take a shot at?
    Mr. Palafoutas. If you want this, Mr. Chairman, you are 
going to get it. I happen to go back to Mr. Rotenberg's comment 
about your bill and the private right of action, and I will 
just mention one thing about the Hollings bill. The private 
right of action does cause us a great deal of problems, and 
while there may be----
    Mr. Stearns. And I am not here to--you know, on the House 
floor you can't say anything negative about the Senate. You are 
called out of order. And I am not here to talk in a way that is 
negative, but just to say that from a policy perspective that 
this is something we are concerned about and why, you know. 
And--all seven of you are going to have a different opinion, 
but that would put on the record our sticking points, because 
Senator Conrad Burns over there is the ranking and he has 
supported the bill. So Republicans and Democrats are not going 
to agree on this, as I said earlier.
    Mr. Palafoutas. Well, I too am not going to say anything 
negative about Chairman Hollings. I think one of the concerns--
and I will pass the microphone down--is the private right of 
action. Mr. Rotenberg makes a good point about the Federal 
Trade Commission, and I think the Federal Trade Commission is 
the proper place to do it. They may need some beefing up on 
this. I know some members of their staff are here, and I won't 
say anything negative about the Federal Trade Commission 
either. But that is a concern for us in the bill, and we 
appreciate your bill puts the enforcement action in the bill.
    Mr. Servidea. Mr. Chairman, I am pleased to answer this 
question because I think until you decide what it is you are 
trying to regulate, what it is trying to legislate about, you 
basically have nothing. And I think the biggest single 
deficiency with respect to Senator Hollings' bill is the fact 
that the scope is so narrow as to apply only to on-line 
transactions. I think to pass that kind of legislation would be 
disingenuous as far as the American consumer is concerned. 
American consumers' personal data is their personal data. 
Doesn't matter where it is, doesn't matter how they released 
it, they should be protected.
    Unfortunately, at the very end of the day, Senator Hollings 
put sort of a Band-Aid kick-off to the Federal Trade Commission 
to study offline. But the bill is basically an Internet 
regulatory bill. That is the biggest deficiency, frankly, is 
the scope of the bill. Second, I would comment that there is 
more than one privacy bill in the Senate, and Senator 
Feinstein's bill is an excellent bill.
    Mr. Schall. Mr. Chairman, I would point out that the 
National Business Coalition on E-Commerce and Privacy actually 
sent a letter of opposition to Chairman Hollings on S. 2201 and 
we would be happy to furnish that to this committee because it 
delineates our five points of opposition. I will mention them 
here. First of all, S. 2201 is confusing in that it really 
creates four different categories of information: There is 
sensitive information, nonsensitive information, and there is 
not quite so sensitive information. I don't know if anyone can 
make sense of those.
    Second, the point made already is online only. I think it 
is a disservice to the American economy to only focus on what 
is 1 or 2 percent of consumer transactions in the economy, and 
also keeping in mind the logistical problem that companies 
really don't sort information by where it comes from.
    The third point is that S. 2201--and I don't know if it is 
intentional or inadvertent, it really empowers ways to revisit 
laws existing on the books in terms of GOB and HIPAA. I think--
why, even some Democrat Senators on the committee--Senator 
Breaux raised some concerns about the bill. I am not sure one 
wants to take an on-line privacy bill, as S. 2201 would be, and 
have that revisited.
    The fourth point is really remedies. There is far too much 
private rights of action. We have concerns about the strict 
liability and liquidated damages provisions.
    Last, the preemption provisions in S. 2201 are truly 
inadequate, and I would hope when the Senate Commerce Committee 
revisits it, it looks at the model this committee used in H.R. 
4678, because the preemption provisions are so much more 
sensible in this bill.
    Ms. Whitener. I would like to go back to a letter that was 
sent by our CEO in his role as chairman of the Digital Economy 
Task Force, Business Roundtable, outlining some concerns with 
this particular legislation, and I will just kind of summarize.
    The creation again of that new private right of action when 
sensitive information is compromised is considered unnecessary 
and will have many unintended and negative consequences. The 
provision will open a Federal class action floodgate that will 
hinder further innovation by businesses that fear any change in 
their on-line information management practices will be met with 
lawsuits. S. 2201's mandating opt-in for sensitive information 
could place improper burdens on consumers. Mandating opt-in may 
be intrusive and inconvenient and could remove opportunities 
for consumers.
    The legislation ignores the significance of providing 
consumers with effective and credible options to make informed 
choices regarding the use of their information. S. 2201's 
access requirement will increase costs for businesses while 
reducing consumer information security. Though the provision 
mandates more consumer access to private records, the result 
could actually reduce consumer information security requiring 
simultaneous reasonable access, and security could increase 
identity theft and place obstacles in front of the companies 
desiring to take innovative security steps.
    S. 2201 inadequately preempts inconsistent State laws. The 
bill's preemption language would only impact personally 
identifiable information which is collected and used online. 
The legislation does not effectively address the problem of 
inconsistent legislation and legislation imposed by State 
governments in a meaningful way.
    S. 2201 on-line and off-line information collection is 
technically infeasible and economically unreasonable. Companies 
that digitally collect personal information will be held to a 
different and higher standard than those in more traditional 
businesses. The bill creates separate but unequal burdens and 
regulations, and conflicting privacy standards particularly, in 
which consumer information is collected both online and 
offline.
    In summary, the Digital Economy Task Force of the Business 
Roundtable summarized the legislation to be fundamentally 
flawed, overly burdensome, and promises to impede technological 
innovation and electronic commerce, plus it will raise the cost 
of compliance and encourage endless litigation and force many 
of the most innovative traditional electronic commerce 
companies which are usually small businesses, to abandon the 
promise of a digital economy.
    Ms. Barrett. Thank you, Chairman. I think there are seven 
key differences between your bill and the Senate bill, and I am 
not going to go back over all. Obviously the on-line versus--
on-line/off-line nature of the bill. The second is the private 
right of action. The third is the preemption. And I think in 
preemption, we really do need to look at it both from the 
business community's perspective as well as from the consumers' 
perspective and how confusing it is for the consumer who works 
in one county and works in one State and lives across the State 
line to deal with a myriad of privacy laws. The fourth is 
enforcement and self-regulatory efforts, which I commented on. 
The fifth is harmonization with other laws where we have 
specific laws recently enacted.
    Mr. Stearns. Particularly with international.
    Ms. Barrett. International, health care, financial 
services, children, the list goes on and on. And I think it is 
critical that we recognize the appropriateness of those laws.
    The notice and choice provisions of your bill do work in an 
on-line and off-line environment. And I think it is important 
that we look at notice and choice across mediums. I don't think 
we can sit here today and foresee where technology will take us 
and what new mediums we may be dealing with. And when we look 
at legislation which is specific to one medium, I think we have 
serious unintended consequences down the road when the 
technology changes. And the last is the access provision which 
I commented on in my testimony.
    Mr. Misener. Mr. Chairman, I agree that the biggest concern 
with where S. 2201 began was with the focus exclusively on on-
line transactions. And then in April's hearing, at which I also 
testified, I believe the committee frankly was moved by some of 
the testimony which described how the bill would only touch 1 
or 2 percent of consumer transactions and could do nothing for 
those on the unfortunate side of the digital divide.
    By the end of the hearing, every member of the committee 
had spoken in favor of looking at off-line privacy as well. So 
I would like to think that there is movement to sort of 
coalescing around an agreement which incorporates a holistic 
view of consumer information privacy.
    Mr. Rotenberg. Mr. Chairman, I think it is important to 
understand first of all that Senator Hollings' bill in the 
107th Congress S. 2201, is very different from the bill in the 
106th Congress, and that a lot of progress was made to try to 
resolve some of the differences between consumer groups and 
business. And, frankly, we agreed to a lot of things which I 
felt was possibly going too far on many of the key issues.
    On the opt-in issue we said maybe for most transactions 
opt-out was more sensible if it could be made to work. On the 
private right of action we recognized that there had to be some 
limitations. And, frankly, we are not in favor of creating a 
private right of action that enriches lawyers. We would much 
rather see consumers' interests protected, and that is the 
issue that we focused on. On the preemption issue there was 
also some effort to allow some action for States, and at the 
same recognizing a need for national standards.
    So my sense about S. 2201, in fact it was a sensible 
compromise where both sides gave up something--and I am trying 
to figure out on the spectrum where we would put 4678. It seems 
to be the counter position from the Hollings bill in the 106th 
Congress.
    Mr. Stearns. That is how you would put it in the spectrum?
    Mr. Rotenberg. Yes, sir, I think I would. Because as I 
said, there are two very different bills that have come out of 
that committee, and the current one is not the one that was in 
the previous Congress. The other point----
    Mr. Stearns. Do you support the one in the 106th?
    Mr. Rotenberg. Yes.
    Mr. Stearns. That was better from 107th?
    Mr. Rotenberg. From a privacy viewpoint, yes. It gave more 
rights to consumers. The bill that was reported out of the 
Senate Commerce Committee, as I said, was significantly scaled 
back. It did not include a lot of the provisions.
    Mr. Stearns. But your organization supports the Senate 
bill.
    Mr. Rotenberg. Well, I testified on that bill, and I think 
we said largely that it could be made to work.
    Mr. Stearns. With some minor changes, you would support, 
your group would support that bill.
    Mr. Rotenberg. I think if enforcement is serious and there 
is a cooperation on both sides, it could be made to work. But 
it is a very different bill from the one we were looking at a 
couple of years ago. The other point----
    Mr. Stearns. Do you think he should have dealt with off-
line and on-line privacy the same?
    Mr. Rotenberg. This is the point I wanted to get to. And I 
have to say as the debate has progressed, I think the case has 
been made particularly well, you know, on this side that off-
line does need to be addressed. And I think in this respect, 
you know, the Senate bill probably does come up short, and I 
imagine from the business perspective it doesn't seem like a 
sensible distinction.
    I have to say our concern on the Senate side is that many 
who said, if you are going to pass a privacy bill you need to 
do both, was that the people who took that position really 
didn't want a privacy bill. And my view is if you are going to 
take the position you need to do both, I think you have to be 
prepared to back the bill. You can't say let's make the problem 
so large we can't solve it. That is not an approach to finding 
a solution.
    Mr. Stearns. Mr. Schall mentioned two local communities in 
California now have passed privacy bills. Are you concerned 
about the balkanization in this country--different States and 
communities having different thoughts?
    Mr. Rotenberg. I am primarily concerned about the 
protection of privacy in America. And what is extraordinary to 
me is how hard people across this country are working to 
protect their privacy. I haven't seen an issue in the last 10 
years that has generated this type of activity at the local 
level. And I think that should send a message to the Congress 
that people want a strong bill.
    Mr. Stearns. I thank my colleague for his patience and 
recognize the gentleman from Virginia.
    Mr. Boucher. Thank you, Mr. Chairman, and I want to express 
my appreciation also to the witnesses who testified today. You 
have prepared thoughtful testimony and you have delivered it 
well and we appreciate your contributions to this ongoing 
discussion.
    I want to direct my question to the international 
provisions that are contained in the bill and get the views of 
witnesses with respect to those. Several years ago there was a 
carefully negotiated safe harbor achieved between the United 
States and the European Union. It was designed to enable the 
continued flow of data between the European operations of 
American companies and their American operations, 
notwithstanding the fact that American law does not contain the 
formal privacy requirements that are extended by the European 
Union, which has very thorough privacy guarantees, well beyond 
what American law provides and beyond in fact what this bill 
provides.
    It was a carefully negotiated agreement. Many Members of 
the U.S. Congress were involved in the discussions that led to 
that agreement. In fact, Mr. Goodlatte and I, the co-chairs of 
the Congressional Internet Caucus, testified before the 
European Parliament at one point, urging support for and 
implementation of the safe harbor. And it was implemented. I am 
sure our testimony had little to do with that result, but we 
were very pleased when that result was achieved.
    My general reading is that this safe harbor arrangement has 
been working well, and we now have more than 240 American 
companies that have registered under it and have agreed to the 
conditions that are contained in the safe harbor. And I think 
people on both sides of the Atlantic are relatively pleased 
with the results of that arrangement.
    The last thing that I would like to see is something 
contained in this bill, were it to achieve passage, to 
adversely affect the safe harbor arrangement. And I would like 
your views about whether or not these international provisions 
might do that. The international provisions are designed to 
address the concern that some companies have voiced that there 
are other European policies that have a discriminatory effect 
with respect to American companies that adversely affect 
American companies in comparison with their European 
counterparts. Some have suggested that some of these European 
policies are intentionally designed to favor the European 
companies, that these are not inadvertent consequences of the 
implementation of the European policies.
    So there is a level of concern about this discriminatory 
effect on the part of some American companies. That concern has 
been reflected in the international provisions in this bill, 
which are quite explicit about what American agencies are 
supposed to do in the event that the U.S. Administration finds 
that there is a discriminatory effect. And point in fact: At 
one point the bill even says that no Federal agency may 
continue any action to enforce even agreements that the United 
States has entered into if those agreements lead to some 
discriminatory effect.
    Now, bearing in mind that the safe harbor arrangement 
continuation depends entirely upon the voluntary willingness of 
the European Union to continue it, I am wondering how 
irritating you think this provision might be and whether it 
might at some point--would lead the European Union to suggest 
that----
    Mr. Stearns. Will the gentleman yield?
    Mr. Boucher. Let me just finish the question and then I 
will yield.--to suggest that perhaps if we are going to behave 
this way, we are going to have some different view of whether 
the safe harbor ought to be continued.
    I would be happy to yield.
    Mr. Stearns. I am going--we are going to take a 5-minute 
break. I have to make one call and a lot of the members haven't 
come in. We don't have votes until late tonight. We are going 
to take a 5-minute break and we will be right back and that 
will give you a chance to ponder his question.
    [Brief recess.]
    Mr. Bass [presiding]. Sorry for the momentary interruption. 
We are all playing musical chairs. The chairman had to go down 
to make an opening statement. I am not sure he mentioned that. 
If he did, we certainly apologize for the interruption, and I 
would continue to preside until he runs. My understanding is 
that Mr. Boucher asked a question and we were waiting for a 
response.
    Mr. Boucher. Mr. Palafoutas, let us begin with you.
    Mr. Palafoutas. To say we have a concern is to say just 
that, and the bill recognized that, in that the Secretary of 
Commerce has the responsibility, if the bill is enacted, to see 
if this harmonizes. Our concern is predicated in some respect 
on the meeting Chairman Stearns had with the privacy officers 
of the EU back in January. And they have a different view of 
what is going on in terms of privacy. And as you mentioned, I 
think the number is 242 companies have signed up under the 
directive, and we are not sure how the Europeans will respond. 
From our standpoint we just don't know. I am sure others have 
other opinions.
    Mr. Boucher. When you say you don't know, let me plumb that 
a little more deeply. Are you a little bit apprehensive if we 
enact this provision into law that the Europeans could 
potentially respond by being less interested in the 
continuation of the safe harbor provision? It is purely 
voluntary on their part.
    Mr. Palafoutas. Yes.
    Mr. Servidea. I think to start out, I would say, yes, we do 
share the concern that perhaps it could disrupt what we think 
is probably an arrangement that is working well at the moment. 
As you pointed out, there are over 240 U.S. Multinational 
companies who have decided to voluntarily certify into safe 
harbor. And I think we have to start from the premise that the 
European governments have certainly the right to protect their 
individual citizens' privacy just as you do, you know, U.S. 
Citizens. And we can do that with them under individual legal 
contracts with each of the data protection ministries or we can 
do it under the Safe Harbor Agreement. The Safe Harbor 
Agreement happens to be a much more efficient way to do that 
instead of having to deal with 15 different data protection 
directives on perhaps a very specific--sectoral-specific 
contracts. We can certify under the safe harbor to all of that 
and have the U.S. Regulatory agencies being the enforcement 
mechanism. We think it is working well and we would not like to 
see it disrupted. We think sections 302 and 303 possibly could 
do that. Section 304, which calls on the Secretary of Commerce 
to work on harmonization, we think is probably worthwhile.
    Mr. Boucher. I share the view you have expressed, and I 
would hope as we examine these provisions once again in 
anticipation of enacting the measure during the next Congress, 
we could revisit these international provisions. And if you 
would be so good perhaps as to communicate this view somewhat 
more persistently during the drafting process, I think that 
would be beneficial to all parties concerned.
    Mr. Schall.
    Mr. Schall. I am glad you brought up the international 
provisions, because I think the whole international question is 
important to this debate and you should be commended for your 
leadership with our European counterparts on this issue and 
also for going the extra mile with some of our companies in 
talking through how some of this works.
    With respect to the safe harbor--and I must say over the 
course of the history of the National Business Coalition on E-
Commerce and Privacy, we have had some companies who are in the 
safe harbor--lots of companies who decided not to be in it. 
What we are concerned about is there is a level playing field 
between us and the Europeans. And I think that is why the call 
for the study in here is probably worth doing. In fact, it is 
sort of perhaps surprising that a study of this sort wasn't 
done before when we first entered into the safe harbor during 
the previous administration.
    Clearly, we all need to remember you are dealing with a 
whole different culture over there in terms of both enforcement 
and litigation, much more haphazard enforcement on the European 
side than we see over here, and a very important distinction in 
the litigation culture where, by and large, loser pays over 
there. Tremendous disincentive to bring lawsuits. Obviously, we 
don't benefit from that approach over here. Perhaps if we did, 
we would have a different view.
    A lot of the companies decided not to pursue the safe 
harbor, hoping that model contracts would end up being better, 
and then we of course subsequently discovered that the model 
contract that the Europeans decided to draw them out were not 
better, in fact were worse, and you have been a part of that 
discussion as well.
    I would, however, share your concern with the particular 
provision in this bill that has Congress dictating to the 
Secretary of Commerce on how to enforce those provisions. I 
think that would probably raise a constitutional concern, so I 
think that is worth looking at, though I think the study itself 
would simply benefit everybody.
    Mr. Boucher. Anyone else care to comment on that?
    Ms. Whitener. I won't restate some of the comments made 
here. I would like to point out in section 304 we believe the 
approach is on target. Again, some of the issues that have been 
raised we certainly do feel would warrant perhaps some 
additional discussions. But in general, we believe that 
businesses should have the freedom to operate globally under 
harmonized laws, and if you have processes that leave a door 
open for a claim of inadequacy, that it does little to promote 
e-commerce.
    Mr. Boucher. Section 304 just deals with the general 
efforts to provide notice to other countries about problems 
that we have and generally would be in pursuance of 
harmonization. That is not the more troubling section that 
actually would inhibit enforcement of agreements we already 
have in place. Anyone else care to comment?
    Ms. Barrett. I would like to say I am commenting on behalf 
of Acxiom and not the three companies that I testified. Acxiom 
is a member of safe harbor, and we do business in almost all of 
the European countries and have found it to be extremely 
beneficial in facilitating relationships both within Europe--
global companies working with information flows across those 
borders. We certainly would not want to approach any kind of 
study with a ``let's find problems'' kind of attitude. If it is 
a balanced study and it does get to the facts and identifies 
any issues or any problems that exist, we think it might be 
very appropriate. But we need to be cautious about the tone in 
which we approach it.
    Mr. Boucher. I think we agree, and I detect a consensus 
everywhere and I share this, that we ought to have the study 
provisions. The real troubling provisions are those that would 
inhibit enforcement of agreements already in place, and perhaps 
we could do without that, while promoting harmonization and 
promoting a study of the effect the policies that Europe has 
with respect to American companies. And if there is 
discriminatory effect, we ought to talk about it and try in a 
persuasive way to remedy those problems.
    Thank you very much for your comments on this. Mr. 
Chairman, I don't have any other questions. Let me simply say--
the other chairman is not here, but let me again say that I 
think Mr. Stearns has done an outstanding job in plumbing the 
depths of a very complex subject. The hearings he has held are 
unprecedented in our Congress on the question of privacy 
assurance. We have built a tremendous committee record on this 
subject and I think we are ready to act in the next Congress. 
And with the support of those at this table and with good 
consultation from those who may not agree with all of the 
provisions, Mr. Rotenberg, hopefully in the next Congress we 
can achieve the enactment of a measure that assures for 
American consumers greater privacy protection.
    Mr. Bass. Thank you, Mr. Boucher. I am sure that the other 
chairman will appreciate your kind remarks.
    I was wondering if each of you could comment on the 
cybersecurity provisions of the bill.
    Mr. Palafoutas. The short answer is we appreciate those 
provisions and we think that they need to be in the current 
form, because people are concerned about the things that come 
up about their identity and the security of personally 
identifiable information. So from my company standpoint, these 
provisions are good.
    Mr. Servidea. I will take a pass on that, if I can.
    Mr. Schall. We are glad there is a security component in 
the bill. You know, it is funny; we all bandy about the word 
``privacy'' in this debate. But in a very real way, privacy is 
a misnomer, in that in the most fundamental sense this is a 
debate about data management and security. And I think a lot of 
the concerns that real people genuinely have when they think in 
the world of privacy are really security concerns about their 
data, how it is stored, and how it gets used.
    So I have to commend Mr. Stearns and the staff and the 
members for putting in a security component in the bill, 
because in fact I think the terms do get conflated in some 
sense, and it is important to realize that a lot of what we 
talk about when we are talking about privacy, we really mean 
security. And for there to be a security component in the bill 
I think draws it out in a very important way.
    Ms. Whitener. Well, certainly in the testimony that I gave, 
I sort of concentrated a little bit on this area of security--
because, again, in viewing the importance of security, it is 
critical--is the underlying actual foundation of being able to 
enable your privacy policies. We work together with clients 
when we are looking at security, and we are looking at privacy 
issues certainly to look at the security in place, and it is 
critical.
    We believe that what is built into this bill from the 
standpoint of the development of a policy, that consideration 
of a policy and the approval of the policy by senior management 
is also very critical because that does raise the awareness to 
the levels at which a company can begin to realistically assess 
the risk associated with the security within the organization 
and begin to make decisions about generally the costs and the 
benefits and how to mitigate the risk and to how to best absorb 
the risk, transfer the risk, or how to deal with it just as any 
other business risk. But it is critical that senior management 
understand and appreciate the risk that security brings to 
their organization, and so we certainly support that.
    We also support the fact of a designation of someone within 
the organization to have that as a responsibility. As I 
mentioned, many organizations have someone within their IT or 
within the organization that has either a part-time or some 
role centered around security. But it is very important within 
a company for there to be a channel, a point person for when 
there is an incident; that someone knows who to go to to report 
it to, and someone who has ultimate accountability for the 
security programs. So we are in support of the security that is 
within this bill.
    Mr. Stearns. I don't know--I guess--let me ask Mr. 
Rotenberg a question. You mentioned something about the sharing 
of information dealing with law enforcement agencies. And is 
there any prohibition dealing with marketing information?
    Mr. Rotenberg. I am sorry?
    Mr. Stearns. In other words, you are concerned and want 
that there should be more prohibition in dealing with law 
enforcement agencies. You mentioned Acxiom and how they are 
sharing their information.
    Mr. Rotenberg. I didn't say prohibition, Mr. Chairman. In 
my testimony I tried to explain that typically what is done in 
a privacy law is to create a fourth amendment standard, so if 
there is probable cause or reasonable suspicion, the police 
will get access to records that are held by the business. And I 
think that is the appropriate standard and that is the 
traditional standard. There is--my concern here is that first 
of all there is no standard for law enforcement access in the 
bill.
    Mr. Stearns. You would like us to incorporate some 
standard, then?
    Mr. Rotenberg. Yes. As I said, it could be borrowed from 
almost any privacy law. It is done in everything from video 
rental records and e-mail to cable subscriber and financial 
that could be done here.
    Mr. Stearns. I guess Acxiom--maybe your comment, too, about 
what he just suggested.
    Ms. Barrett. Well, we certainly agree that the use of 
information by law enforcement when it is warranted cause is 
appropriate. And I am speaking on behalf of Acxiom. We do not 
believe that, you know, law enforcement should have unfettered 
access to all kinds of commercial information, nor do we 
provide or participate in such practices.
    Mr. Stearns. Mr. Bass, would you like to----
    Mr. Bass. One last question briefly. How will the 
provisions of the bill that we are deliberating on relate to 
provisions passed in Gramm-Leach-Bliley and other privacy-
related aspects of HIPAA?
    Mr. Servidea. I think the bill does a pretty good job of 
specifying that the existing legislation that deals with 
specific sectors such as health care and financial services, 
that those bills take precedence over this bill. And I thought 
that the statement of the, if you will, preemption of those 
bills was pretty explicit and the list is pretty thorough. So--
and we support that.
    Mr. Bass. Any other comments?
    Thank you, Mr. Chairman.
    Mr. Stearns. The gentleman from Oregon.
    Mr. Walden. Thank you very much, Mr. Chairman. I wanted to 
ask, following up on Mr. Palafoutas' testimony, this issue of 
the EU safe harbor provisions, can you give me a little better 
understanding in terms of what we might need to do in this bill 
to make that work?
    Mr. Palafoutas. As we discussed before, ours is a concern 
about the EU and their response to this particular bill. I 
think it is a matter that we want to rise to the level of 
conversations with members of the privacy officers and the 
various customers to see how they react to that, because it is 
a problem in that there is uncertainty there. And that is the 
only problem there is the uncertainty.
    Mr. Walden. Do you think you can get over that issue? What 
does it take to get over that?
    Mr. Palafoutas. I think the bill provides for some of that, 
with the Secretary of Commerce taking a look at this. And even 
preliminary discussions, the chairman has had these discussions 
in the past with the DPAs. I have had them in here in January 
and we had some pretty open discussions at that time. They are 
willing to talk about it because this is of great importance to 
them, although they have a different perspective on privacy 
from what we do in the United States.
    Mr. Walden. Anyone else want to comment on that issue?
    Mr. Servidea. I would like to say that Congressman Boucher 
really kind of hit the nail on the head. Certainly a study, an 
effort to determine where we don't have harmonization, could be 
valuable. I think the difficulty with this is that it kind of 
puts down the gauntlet and says if we can't get harmonization, 
then we are going to stop enforcing the Safe Harbor Agreement. 
And I think throwing down that gauntlet is extremely 
unfortunate. So I would suggest taking out that provision of 
the bill which is section 303, would be very helpful and 
probably would avert a problem with the European Union, and God 
knows we have enough problems with those folks already. This 
seems to start us down the road of where we went with FSC. We 
put the threat down and then it just becomes increasingly a 
problem. And I think for most American corporations right now, 
safe harbor is a working option and we would not like to see it 
disrupted.
    Mr. Schall. If I could jump in there, I think one thing 
important not to lose when we are looking at how we interact 
with the EU is some sort of holistic approach of how this comes 
together. And I think that is what is to be credited in this 
bill in asking the GAO to look at it, because we have only ever 
looked at pieces. The 15 major companies in my coalition, all 
are multinational and almost all deal in Europe, including 
actually America's biggest employer in Europe, General 
Electric. Because of the difference in the enforcement culture, 
because of the difference in the litigation culture where loser 
pays over there, it is a very different environment. And I 
don't think anybody has walked through yet how those 
differences impact our companies in operating with that data.
    And also remember, too, we only ever looked at a piece of 
it. Safe harbor which frankly has not really been huge 
companies--240 companies is obviously much fewer than the 
Department of Commerce would have ever predicted and many fewer 
than the Europeans would have hoped, you know; even safe harbor 
doesn't include financial services companies that are still 
hanging out there because the Europeans refuse to accept the 
fact that Gramm-Leach-Bliley as passed by the Congress and 
signed by the President is American law and ought to be deemed 
adequate for EU purposes. So there are always still financial 
companies still hanging out there. They don't have a safe 
harbor to go into. And I have both financial and nonfinancial 
companies in our coalition. I think what is important not to 
lose here is the bill, asking someone let us finally do this 
work that we probably should have done 4 years ago that tries 
to get a holistic look and evaluation of this situation.
    Mr. Walden. Anyone else have a comment on that? Mr. Schall, 
can you explain your understanding of what is being considered 
in San Mateo, California, and is this permissible under other 
privacy laws such as the privacy protections within Gramm-
Leach-Bliley?
    Mr. Schall. What we see happening in California right now, 
San Mateo County and Daly City have already both passed their 
own separate opt-in privacy laws. They took us a model bill 
that was in the California legislature statewide and did not 
pass in the California assembly. So these local jurisdictions 
have begun to pass it. Actually five other counties and cities 
in that area will do so in the coming weeks. Those bills 
actually differ from one to the other, even though they are 
generally sort of similar in opt-in, but they have different 
remedies, different enforcement provisions.
    Actually it is an interesting situation. Daly City is in 
San Mateo County and San Mateo County passed a bill and then 
Daly City passed a bill and they are not identical. What we see 
is now with the potential of who knows how many local 
jurisdictions passing conflicting privacy laws, I don't know 
how you comply with that. Certainly there is a court challenge 
already to those under both the National Bank Act and the Fair 
Credit Reporting Act. I think the Fair Credit Reporting Act 
challenge is a strong one, but the Fair Credit Reporting Act 
would only apply to sharing with affiliates so it would not--
even if it was found valid by the courts--would not throw out 
the entire law. And I think because of that, what you are going 
to see is a lot of these popping up.
    I think under recent Supreme Court rulings you would have 
to come to the conclusion that Gramm-Leach-Bliley may well not 
preempt them. Unless there is a specific prohibition on 
jurisdictions within States, then you probably haven't 
preempted locals from doing that. I think now we have this 
situation and I think that is frankly why we are going to need 
a bill because you have already seen some localities passing 
bills.
    Mr. Walden. Given--do you believe that this bill's 
provision's banning private rights of action and preempting 
State action can be interpreted to permit or allow class action 
lawsuits in States?
    Mr. Schall. Right now?
    Mr. Walden. No. Under this legislation.
    Mr. Schall. I don't see anything under this legislation, on 
the advice of counsel--and perhaps others know better--I don't 
see anything in this legislation that changes what is existing 
private-rights-of-action State AG authority under existing 
mini-FTC acts passed by each of the 50 States and District of 
Columbia. I don't think anything here changes what is already 
existing in terms of what can be done at State and local levels 
in terms of enforcement under mini-FTC acts.
    Mr. Walden. That is all the questions I have.
    Mr. Stearns. I thank my colleague. Let me just before we 
wrap up, just touch a little bit, Greg, on what you just talked 
about, which I think is going to be the hard fight, because you 
have a lot of policy decisions but then you come down with one 
or two political ones. And this banning the private right of 
action and preempt State action is going to be the political 
fight, because there are people who fundamentally think they 
should be able to go to the Federal courts and be able to sue. 
And so that might be an area where we are going to have to find 
some kind of compromise to get this through. As you know, with 
a political consensus issues work through themselves 
successfully and that is why we have the ballot instead of the 
bullets. So it is really a remarkable process so I am very 
sensitive to that.
    I guess a question, Mr. Schall just touched on--I will go 
back to you--if we have in the bill this banning private right 
of action and preempting State action and maybe someone else--
Mr. Rotenberg, you can help me out, too--would that eliminate 
class action suits at the State level? Could that eliminate all 
possibilities of States attorneys general getting together and 
working to do something? I am not a lawyer, but it would seem 
to me that we are trying to keep it on the State level and not 
on the Federal level. But there might be ways for attorneys 
general in class action suits to get together.
    Mr. Rotenberg, let me have you start, because you are 
probably more supportive of this.
    Mr. Rotenberg. I appreciate your comment, Mr. Chairman, and 
I really do want to emphasize that my position and the position 
of the privacy community generally is not to enrich lawyers.
    Mr. Stearns. Oh, no.
    Mr. Rotenberg. And I want to make sure how strongly we 
believe this. I went up to New York to participate in a Federal 
Court proceeding as an intervenor to object to a settlement in 
a case where the lawyers were getting paid and nothing was 
being provided to the consumers for a breach of privacy, and I 
said to a Federal judge I thought this was not appropriate. So 
I would look for approaches that address the concerns of the 
business community about not being exposed to class action 
liability. I think you know the opportunity under the Telephone 
Consumer Protection Act, for example, which allows people to 
get damages of $500 if they go through all the steps of 
notifying the company first and then going to small claims 
court is not about approach for privacy issues. And I think 
there are also ways in terms of the State attorneys general to 
allow them to enforce rights set out under Federal statute, 
which was the approach that was ultimately settled upon in the 
revised Hollings measure.
    So I think there are ways here in the middle area to 
address concerns on both sides, but I believe very strongly the 
flat prohibition on private action joined with this very strong 
preemption is really shutting the door on privacy claims.
    Mr. Stearns. Well, I am sensitive to that. We have this and 
we support it, but I am looking for possibilities, if I can get 
a markup out of my subcommittee and get it to the full 
committee. I mean, to get a lot of the Democrats on board is 
going to require some compromise in that area, and I see that 
as one of the problems, early on problems, so any solution that 
you have.
    Mr. Schall, I will let you answer first.
    Mr. Schall. Well, I am glad Mark Rotenberg and I agree that 
this should not be a trial lawyers enrichment act. As we read 
the bill, there is nothing in your bill that bans class 
actions. So no, they would not----
    Mr. Stearns. They could go to the States?
    Mr. Schall. Absolutely. And that point is definitely worth 
underscoring. States still have the opportunity to act under 
this bill through mini-FTC acts that have been passed by all 50 
legislatures and the District of Colombia, and indeed if States 
want to go back and revisit mini-FTC acts that they passed, 
they are free to do that as well. So State attorneys general 
have the ability to act in private rights of action at local 
levels.
    What this bill does not do, and I think exactly is the 
right decision, is not create some new Federal private right of 
action for this bill, leaving the enforcement authority to the 
FTC where I think it legitimately belongs. So nothing in this 
bill changes what is already there in terms of class actions 
and State attorneys general under mini-FTC acts.
    Mr. Stearns. Mr. Misener.
    Mr. Misener. Mr. Chairman, we have testified on a number of 
occasions that we oppose private rights of action in this new 
kind of a privacy law. And certainly we would also oppose class 
actions. To us it is a subset of private rights as a specific 
type of action, and we ought not have newly granted private 
rights under this kind of a bill. This isn't though, however, a 
traditional case of businesses just being afraid of the trial 
bar and issuing any kind of private rights for fear of large 
judgments and that sort of thing. It really goes to the 
ultimate goals of this legislation. And it seems to me that the 
ultimate goal is giving consumers informed choice about their 
private information: what they have done with it, where they 
provide it, where it goes thereafter. And that kind of informed 
choice relies on information and having the consumer truly be 
informed of what is going on.
    I think it would be easy for companies, responsible 
companies like the ones that come and testify before your 
subcommittee, my company certainly, to write a very thorough 
legalistic privacy notice that would withstand any kind of a 
private challenge. It would hold up and it would be 5, 15, 20 
pages long, small type, and all those sorts of things, but the 
fact of the matter is consumers will never read that. What they 
want to read is something really clear, bullet points, couple 
pages long, that is understandable and in English.
    Mr. Stearns. Or their lawyer can read.
    Mr. Misener. And so I guess our concern, Mr. Chairman, is 
if we are subjected to the class action bar, to the plaintiff's 
bar in general, what we will find is that companies will back 
off and make their policies a lot less readable for the sake of 
legal defensibility. It seems to me a public enforcement 
mechanism, such as through the Federal Trade Commission, could 
take into account those competing goals of precision and 
readability.
    Mr. Stearns. Anyone else wish to comment on that? I will 
close with asking each of you perhaps just the cost of 
implementation of H.R. 4678; you know, do you see any large 
costs for implementation of this bill? And you might just say 
what you would foresee if you had to implement the one on the 
Senate side, just to give me an idea of some--I don't know if 
you can quantify it, but you might be able to speak in broad 
terms--is this going to cause an enormous additional cost for 
you and your companies?
    Mr. Palafoutas. As you know, Mr. Chairman, the most visited 
Web sites already have a clearly defined privacy policy and do 
all that they can to protect consumers' privacy. I think in 
terms of cost to the companies, I don't see a great cost. I 
think it is of great importance to consumers that they do this 
certainly across State boundaries; and that is the biggest 
thing that this bill does, just to make it seamless. You take a 
look at the local municipalities--now the States, consumers can 
have certainty on interstate commerce. This is going to 
continue. The one big cost that consumers talk about is they 
want a free Internet. We don't talk about that other side.
    If you were to do a survey of everybody here on the panel 
and ask are you concerned about privacy on the Internet, of 
course we are concerned about it. But as Mr. Rotenberg said 
earlier, there is a tradeoff, and part of the tradeoff is still 
get my name, address, and telephone number for certain uses. 
But I think your bill brings certainty into the marketplace, 
and anytime there is certainty in the marketplace, that is a 
good thing and a plus for industry and a plus for consumers.
    Mr. Servidea. Mr. Chairman, I don't--speaking for NCR and 
for the rest of the companies--I don't really foresee a great 
expense involved in implementing H.R. 4678. I think most of the 
companies have already put in place the provisions that you are 
asking for here. I think with respect to the Senate bill, I 
think because of the fact that it differentiates so much 
between different types of information, as was pointed out--
sensitive information, insensitive information, on-line 
information versus off-line information, whereas most of our 
systems, most of our practices and procedures, are to treat 
data--as I said, data is data and we treat data pretty much the 
same way. If we had to go back and try to refigure out how we 
are going to treat it, that is where the cost would come from.
    Mr. Schall. Sure, there are costs, and I would suspect we 
will all find they are much higher than we think, but we 
consider them to be legitimate costs. But I will give one 
example. One of our coalition companies, Check Free--California 
passed the law that this is how you deal with Social Security 
numbers in terms of financial transactions--required a change 
in the management system, $250,000 just in that State. One 
State, one company, and multiply that by every company in every 
State, sure the costs add up. But we considered the costs that 
would be associated with the changes outlined in this bill 
obviously are far lower than what you would see in the approach 
in S. 2201; higher costs which frankly wouldn't result in any 
added benefit to consumers, and I think that is the real 
problem.
    And then to underscore the other point, what would be most 
expensive for us and, of course, possibly impossible to comply 
with and no benefit to consumers, is to have some patchwork. We 
have to have any number of information systems to meet those 
particular regulations.
    Ms. Whitener. I think most companies, as we look back at 
the ones who have been out front in this issue and have been 
moving forward with very effective security and privacy 
practices, have found that their investment in these practices 
has actually been creating returns, and that it can be used as 
a business enabler.
    Mr. Stearns. Cost of doing business.
    Ms. Whitener. It is a cost of doing business today. 
Companies need to understand what their customers and consumers 
are asking for, what their needs and expectations are, and they 
have got to be able to respond quickly to those needs and 
expectations. And certainly privacy and security are certainly 
two of the demands that they are facing. So if you take away 
any type of compliance-driven initiatives, many companies today 
are working to meet their customers' expectations for security 
and privacy, and they are finding that as they implement 
effective information handling and security behind that, that 
that is enabling business processes and content sharing and 
more effective opportunities for revenue enhancements than it 
had before. So if we look at the costs there, I do believe that 
you can see some rationalization of the costs as an investment 
and very proactive business practices.
    Ms. Barrett. On behalf of Acxiom Corporation, the costs are 
minimal to implement this bill. Most of the provisions are 
already industry practices and certainly practices that we 
think are appropriate practices and that build consumer 
confidence. And I would echo the comments just previously made, 
that it is really about trust and not about compliance when it 
comes to building relationships with consumers.
    I think that where the cost of this bill may be borne by 
companies that have not participated in self-regulatory 
programs or other programs and activities, then they will have 
the costs to implement the kinds of notices, choices, and 
security practices that many of us have had in place for a 
number of years.
    Mr. Misener. Mr. Chairman, it is unlikely that H.R. 4678 
would cause us to expend much and many resources to comply. It 
is not going to cause us to change our practices in any 
substantial ways. In fact, it is not even clear that S. 2201 
would have those direct material costs on a company like 
Amazon.com, which already has had excellent privacy practices 
in place for quite some time. The costs of S. 2201 are not in 
the implementation side but more in the litigation side, 
defensive side. Defensive in two senses: One is defense from 
the litigators, and Mark will tell me who are consumers and not 
litigators.
    But the point is that consumers don't view privacy as a 
vector, nor should they. Otherwise, we would wall ourselves off 
in cinderblock. They want a combination of privacy, 
convenience, selection, personalization, all the things that go 
along with that. And our goal is to try to serve the overall 
customer desire for shopping.
    The other aspect of this, of S. 2201's potential costs on 
us, would simply be the competitive costs. If we are competing 
with on-line retailers, including the largest company in the 
entire world, if the same regulations are not applied to them 
as would be applied to us, we can see substantial competitive 
risks as well.
    Mr. Stearns. I assume you will send a letter of support for 
the bill then? We will use your testimony as an endorsement 
somewhat.
    Mr. Rotenberg. I am still working on my letter, Mr. 
Chairman.
    Mr. Stearns. We will be waiting.
    Mr. Rotenberg. I think it is very important to keep in mind 
costs to consumers, because ultimately when you are talking 
about the protection of privacy, you are talking about the 
concerns that consumers have about the loss of privacy. And 
there can be hard costs in identity theft, which State 
attorneys general say now is the No. 1 white collar crime in 
America. There can be soft costs in the sense that the 
businesses you are dealing with in trying to establish 
relations of trust are routinely taking your personal 
information and selling it to third parties for other purposes. 
Now, it is hard to put a price tag on that, but it is very 
real--I think the large problem here that needs to be solved.
    But I think what unites the consumer groups and business 
groups is the belief that the cost to consumers to participate 
in new services should not be their loss of privacy. They 
should not be asked to trade their privacy to be able to take 
advantage of opportunities in the marketplace. And so I think 
we need a bill that minimizes that cost and lets people 
participate and safeguards their privacy.
    Mr. Stearns. I thank all of you for attending our hearing. 
And as we move forward, any of you who have not written a 
letter of support, we would appreciate it because that works in 
getting Members to come on the bill.
    The second point I would make is that what Mr. Shaw 
mentioned in California, there is going to be much more of an 
impetus to this get bill marked up and get it to be visible. I 
invited the chairman up. He is down in an oversight hearing on 
Global Crossing. But the bottom line is I need to convince more 
Members and the leadership of my party how important it is to 
get this as a benchmark before we get all these communities and 
50 States out there with a bill which will cause--talk about 
costs that was alluded to.
    So again, I think we made a good start and a lot of your 
testimony will help, I think, clear a lot of issues for Members 
and we will keep working on this. And with that the committee 
is adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

</pre></body></html>
